<html>
<title> - [H.A.S.C. No. 113-74] REBALANCING TO THE ASIA-PACIFIC REGION: EXAMINING ITS IMPLEMENTATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-74]

                    REBALANCING TO THE ASIA-PACIFIC

                  REGION: EXAMINING ITS IMPLEMENTATION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                            JANUARY 28, 2014



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-964                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, http://bookstore.gpo.gov For more information, contact the GPO 
 Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800,
 or 866-512-1800 (toll free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e285928da2819791968a878e92cc818d8fcc">[email&#160;protected]</a>










                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MO BROOKS, Alabama                   SCOTT H. PETERS, California
RICHARD B. NUGENT, Florida           WILLIAM L. ENYART, Illinois
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
PAUL COOK, California                MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                        Spencer Johnson, Counsel
                           Aaron Falk, Clerk
























                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Tuesday, January 28, 2014, Rebalancing to the Asia-Pacific 
  Region: Examining Its Implementation...........................     1

Appendix:

Tuesday, January 28, 2014........................................    43
                              ----------                              

                       TUESDAY, JANUARY 28, 2014
  REBALANCING TO THE ASIA-PACIFIC REGION: EXAMINING ITS IMPLEMENTATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Kendall, Hon. Frank, Under Secretary of Defense for Acquisition, 
  Technology and Logistics, U.S. Department of Defense...........     7
Lumpkin, Hon. Michael D., Performing the Duties of Under 
  Secretary of Defense for Policy, U.S. Department of Defense....     3
Pandolfe, VADM Frank C., USN, Director for Strategic Plans and 
  Policy, Joint Staff, J-5.......................................     5

                                APPENDIX

Prepared Statements:

    Kendall, Hon. Frank..........................................    62
    Lumpkin, Hon. Michael D......................................    50
    McKeon, Hon. Howard P. ``Buck''..............................    47
    Pandolfe, VADM Frank C.......................................    57
    Smith, Hon. Adam.............................................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    69
    Ms. Duckworth................................................    70
    Mr. Enyart...................................................    71
    Mr. Franks...................................................    69
    Mr. Nugent...................................................    71
    Mr. McIntyre.................................................    69
    Ms. Speier...................................................    70
    Mr. Thornberry...............................................    69
    Mr. Wittman..................................................    70

Questions Submitted by Members Post Hearing:

    Mr. Carson...................................................    78
    Ms. Hanabusa.................................................    75
    Mr. Kilmer...................................................    79
    Mr. Nugent...................................................    80
    Mr. Runyan...................................................    79

  REBALANCING TO THE ASIA-PACIFIC REGION: EXAMINING ITS IMPLEMENTATION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Tuesday, January 28, 2014.
    The committee met, pursuant to call, at 10:01 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Welcome to the committee's first hearing in 2014. Before I 
begin, I would like to recognize our newest member of the 
committee. He attended the briefing we had last week, but this 
is his first full committee--Mr. Bradley Byrne.
    Bradley is a former State senator, attorney, university 
chancellor from the shipbuilding district of Mobile, Alabama.
    Glad to have you hear, Bradley.
    We are glad to have him. We appreciate the strong support 
that his constituents provide to our military.
    As a Californian, I have long understood the importance of 
the Asia-Pacific region to trade and our economic well-being, 
and that security underpins progress in the region.
    I welcome the focus on the Asia-Pacific. However, time will 
tell whether words and promises are followed by action. There 
are some positive signs that U.S. forces in the Pacific are 
receiving less cuts and readiness is being maintained, but I am 
concerned about the total force.
    When the President framed rebalance, he discussed how we 
could now safely turn our attention to Asia, because the war in 
Afghanistan was receding and Al Qaeda was on the path to 
defeat. I am concerned these conditions haven't panned out.
    Violence and instability rage in the Middle East and 
Africa. Preserving forces, readiness, and capabilities in PACOM 
[Pacific Command] means less elsewhere. Can we afford to take 
risk in CENTCOM [Central Command] or AFRICOM [Africa Command]?
    Budget cuts only exacerbate the problem. There is some 
stability for the next 2 years with the budget that we just 
passed, but what happens after that? As we look forward, 
defense funding is basically flat out into the future. We are 
back to sequestration levels. And military leaders are left 
with no choice but to cut end strength, readiness, and 
capabilities. And that has consequences for our security and 
military commitments in PACOM and across the globe, unless we 
adequately resource defense.
    I just in the last couple of weeks I have had five 
ambassadors in to see me, concerned about where America is 
going, what are we doing. We hope we can get some answers to 
that today with the rebalance in the Pacific area.
    We have with us Mr. Frank Kendall, Under Secretary of 
Defense for Acquisition, Technology and Logistics; Mr. Michael 
Lumpkin, Acting Under Secretary of Defense for Policy; and Vice 
Admiral Pandolfe, is that--that is good? Joint Staff Director 
for Strategic Plans and Policy.
    I think Congress can play a constructive role in shaping 
the rebalance, but we must have a candid discussion on the 
opportunities, the challenges, and the risks in its 
implementation.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 47.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and thank you for 
having this hearing. I welcome our witnesses and look forward 
to their testimony and our discussion.
    The Asia-Pacific region has been, for some time will 
continue to be, very critical to U.S. interests. I applaud the 
efforts of the Department of Defense and the administration 
over the course of the last couple of years, as they have 
outlined our rebalancing towards Asia, really a re-emphasis of 
how important Asia is to our interests, and the various allies' 
interests, and countries that we are concerned about in that 
region.
    I think it is a very appropriate move.
    Now the chairman correctly points out, it was done at a 
difficult time in two respects. One, the budget challenges 
remain. I share the chairman's opinion that it is good that we 
passed appropriations bills for fiscal years 2014 and fiscal 
year 2015, that we set in place a budget that is going to, at 
least, give us some stability.
    But that has not changed the fact that cuts will come, nor 
has it changed the fact that sequestration is still out there, 
after fiscal year 2015, issues that we have to deal with. So we 
will have to look at this rebalance within the concept of a 
difficult budget environment.
    And also, and I think it is clear the administration never 
meant that there weren't other parts of the world that will 
continue to be important. There are. Certainly we face 
challenges across the Middle East and North Africa and in a 
number of other places.
    But when you look at the number of players involved in 
Asia, the economic impact, the importance of trade, the 
challenges to stability that are there, you understand why Asia 
is so important to us.
    So I look forward to hearing from the witnesses today about 
how we can properly make this rebalance, what allies are 
critical, how we work to make sure that that region of the 
world knows that we will continue to be a Pacific power.
    I think the biggest thing is the presence of the United 
States in Asia is something that helps bring stability to that 
region. And therefore we need to make sure we maintain that 
presence and be as strategic as we can in dealing with the many 
challenges that are there.
    I, again, look forward to the testimony, and I thank the 
chairman for holding this hearing.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 48.]
    The Chairman. Thank you.
    Mr. Lumpkin, if you will go first, and Vice Admiral 
Pandolfe, and then Mr. Kendall.

STATEMENT OF HON. MICHAEL D. LUMPKIN, PERFORMING THE DUTIES OF 
   UNDER SECRETARY OF DEFENSE FOR POLICY, U.S. DEPARTMENT OF 
                            DEFENSE

    Mr. Lumpkin. Thank you, Chairman McKeon, Ranking Member 
Smith, members of the committee. Thank you for the opportunity 
to discuss the Defense Department's role and the whole-of-
government rebalance to the Asia-Pacific region.
    I would like to express my appreciation for the support of 
this committee to our men and women in uniform and the 
civilians who support them.
    Let me begin by telling you why we are rebalancing to the 
Asia-Pacific. The administration's focus on the Asia-Pacific is 
based on a careful assessment that America's prosperity and 
continued security are increasingly tied to the Asia-Pacific.
    One-third of global trade, including $1.4 trillion in two-
way trade annually with the United States, is with Asia. Half 
of the world's shipping by tonnage passes through the waters of 
the South China Sea.
    As countries and people throughout the region become more 
prosperous, it is ever more important to the global economy, 
the United States will be an active partner in the region's 
growth.
    Rebalance also reflects strong and long-standing ties 
between the United States and the countries of the Asia-
Pacific, where the United States has long supported security 
and stability with our military presence and partnerships.
    I want to emphasize that the Department of Defense's role 
in the rebalance is only part of the broader U.S. Government 
effort that also includes our diplomatic, social, cultural, 
political, and trade initiatives.
    The Defense Department contributes to the administration's 
aim of a secure and prosperous Asia-Pacific through five 
primary lines of effort: transforming and modernizing alliance 
and partnerships; enhancing our defense posture in the region; 
updating operational concepts and plans; investing in the 
capabilities we need to secure our interests throughout the 
region; and finally, strengthening multilateral cooperation and 
engagement.
    Admiral Pandolfe and Under Secretary Kendall will have more 
to say about posture, plans, capabilities, so I will focus my 
opening remarks on what we are doing with allies, partners, and 
regional institutions to achieve our strategic objectives.
    The Department is modernizing our defense alliances and 
partnerships, including with our five treaty allies in the 
region, to address the challenges of the 21st century.
    With Japan's Ministry of Defense, for the first time since 
1997, the Defense Department is reviewing the defense 
guidelines that underpin our cooperation.
    We are also realigning our forces to ensure a sustainable 
presence over the long-term, most notably, our Marine Corps 
presence in Okinawa.
    We are also cooperating to enhance defense and space 
architectures. A new cost-sharing agreement with the Republic 
of Korea, completed earlier this month, will help to ensure 
that we have the resources necessary for the combined defense 
of the peninsula.
    We remain committed to the conditions-based transition of 
operational control. And together, we have developed a plan to 
effectively counter North Korean provocations.
    With Australia, we are building upon the interoperability 
gained by fighting side-by-side in Iraq and Afghanistan, by 
rotationally deploying up to 2,500 marines and additional 
aircraft to the Northern Territory.
    We are also deepening cooperation in areas like space and 
cybersecurity.
    The Department is negotiating a framework agreement with 
the Philippines, which will provide U.S. forces the opportunity 
for greater rotational presence, and will contribute to the 
Philippine Armed Forces' modernization and capacity-building 
efforts.
    We continue our work with Thailand's military to implement 
the Joint Vision Statement for the alliance, focused on 
supporting interoperability, encouraging Thailand to take a 
greater regional leadership role, and strengthening 
relationships at all levels.
    In addition to this work with our treaty allies, the 
Department engages with many other partners throughout the 
Asia-Pacific to contribute to common security needs. For 
example, participation in numerous exercises in support to the 
Philippines, following Typhoon Haiyan, by the littoral combat 
ship USS Freedom, during its rotational deployment to 
Singapore; improving Indonesia's maritime security and 
international peacekeeping capability; increasing Vietnam's 
capacity to conduct maritime search and rescue activities; and 
working with New Zealand through renewed defense policy and 
military staff talks. A critical element of our long-term 
strategy in Asia is to build a strong relationship with India 
and China. As rising powers, they have a special role to play 
in the future security order.
    With India, we are successfully moving toward a partnership 
based on shared interests, including maritime security, 
humanitarian assistance, disaster relief, and counterterrorism.
    We are also deepening our discussions of defense trade, 
technology, and regional security.
    The Department of Defense also continues to engage with 
China, where our cooperation directly supports the maintenance 
of the peace and stability in the Asia-Pacific, and is a key 
component to our overall approach in the region.
    We have made progress in cooperative capacity-building in 
areas such as military medicine, counter-piracy, humanitarian 
assistance, and disaster relief.
    With regard to Taiwan, the Department continues to comply 
with the one-China policy, three U.S.-PRC [Peoples' Republic of 
China] joint communiques and the Taiwan Relations Act, making 
available to Taiwan the defense articles it needs to maintain 
sufficient self-defense.
    Our relationship with Burma is another area we expect 
progress in the coming years. Further progress on defense ties 
will be contingent on continued progress by Burma in the areas 
of human rights, democratization, national reconciliation, and 
suspending defense ties with North Korea.
    We have also significantly increased our efforts to 
increase multilaterally, both through institutions such as 
ASEAN [Association of Southeast Asian Nations] Defense 
Ministers Meeting Plus [ADMM-Plus], and by enhancing trilateral 
cooperation with allies and partners on common interests. Last 
year, the ADMM-Plus hosted three multilateral exercises focused 
on maritime security, counterterrorism, and humanitarian 
assistance and disaster response.
    These efforts offer a critical avenue for increasing 
familiarity and building habits of cooperation that help 
nations effectively work together and reduce the risk of 
miscalculation when military forces interact.
    The Defense Department will continue to prioritize the 
Asia-Pacific region in our activities, exercises, and 
investments over the coming years. We look forward to the 
continued support and contributions of this committee and to 
ensure the United States is positioned to protect our interests 
across the region.
    Thank you very much, and I look forward to your questions.
    [The prepared statement of Mr. Lumpkin can be found in the 
Appendix on page 50.]
    The Chairman. Thank you.

    STATEMENT OF VADM FRANK C. PANDOLFE, USN, DIRECTOR FOR 
          STRATEGIC PLANS AND POLICY, JOINT STAFF, J-5

    Admiral Pandolfe. Good morning, ladies and gentlemen.
    Chairman McKeon, Ranking Member Smith and distinguished 
committee members, thank you for the opportunity to offer my 
thoughts on the Asia-Pacific rebalance.
    Every day, the joint force conducts real-world operations, 
exercises, and senior leader engagement in the Asia-Pacific 
region in support of the administration's rebalance policy. 
These activities facilitate greater interoperability with 
regional forces, mitigate risk of miscalculation, and reduce 
the likelihood of conflict. Supported by our robust regional 
force posture, U.S. engagement in the Asia-Pacific is essential 
to regional security.
    I will speak for a moment about operations. The United 
States forces in the Asia-Pacific region operate continuously 
on land, in the air, and on the sea. These forces routinely 
conduct freedom-of-navigation operations, deployments, and port 
visits. They also work with regional partners to respond to 
natural disasters. Our presence deters North Korean aggression 
and ensures unrestricted access to the global commons.
    As a recent example, U.S. forces responded quickly and 
efficiently by supporting the U.S. Agency for International 
Development's humanitarian response to the Philippines in the 
wake of Super Typhoon Haiyan in November of 2013. The scope and 
speed of our response--more than 13,400 personnel, 66 aircraft, 
and 12 naval vessels--clearly demonstrated the depth of U.S. 
commitment to the region.
    By evacuating 21,000 people and delivering nearly 2,500 
tons of relief supplies, U.S. forces again showcased the 
ability to respond rapidly and effectively. Activities like 
this increase interoperability with allies and partners, which 
in turn improves their ability to respond to a range of 
contingencies. U.S. forces' long-term operational presence in 
the region also serves to deter threats to peace and stability.
    Let me turn for a moment to exercises. As Acting Under 
Secretary of Defense Lumpkin stated, regional relationships 
form the foundation of our alliances and partnerships in the 
Asia-Pacific. Solid relationships are built on familiarity, 
trust, and communication. These effectively increase our 
capability to work together in any number of scenarios.
    Military exercises have proven to increase interoperability 
across key mission areas such as humanitarian assistance and 
disaster relief, counterterrorism, maritime security, and 
peacekeeping. As the rebalance continues, regional exercises 
continue to grow in scope, participation, and sophistication, 
ranging from basic unit-level training to complex, 
multinational exercises such as RIMPAC [Rim of the Pacific] and 
Cobra Gold. In 2014, RIMPAC will include Brunei and China for 
the first time. Thailand-based Cobra Gold will see 
participation by Indonesia, Japan, Malaysia, Singapore, and the 
Republic of Korea, among others.
    Through our exercise program and other engagements, we are 
helping our partners take the lead in addressing regional 
challenges. Additionally, we are working closely with the 
Department of State to assist nations in strengthening their 
maritime security capabilities.
    A few thoughts on senior leader engagement. Senior 
uniformed leaders are taking advantage of opportunities to 
reach out to our counterparts in the region. For example, 
Chairman Dempsey traveled to China in April 2013 for high-level 
meetings with the Chinese chief of the General Staff and other 
key Chinese leaders. And he will host a reciprocal visit in 
May. He hosted allied defense chiefs from the Philippines and 
Australia in 2013, as well as the Malaysian chief of defense 
just this month.
    The chairman also accompanied Secretary Hagel to Korea for 
the annual alliance conference in September of 2013. PACOM 
commander Admiral Locklear and his service component commanders 
continuously engage with their regional counterparts, hearing 
their concerns, reassuring them of continued support, and 
demonstrating U.S. commitment to the rebalance.
    Regarding force posture, this commitment is most vividly 
demonstrated by physical presence. Our close relationship with 
regional allies and partners is enabled by U.S. force posture 
in the Asia-Pacific, which assures access and reduces response 
time.
    In addition to our long-term presence in Korea and Japan, 
rebalance initiatives in Darwin, Australia, and Singapore 
continue to bear fruit. Rotational Marine Corps deployments to 
Darwin began in 2012. We sent a company-level rotation of 
marines there for 6 months last year and will eventually grow 
this rotational presence to 2,500.
    Additionally, the littoral combat ship [LCS] USS Freedom 
completed her first deployment to Singapore in November of 
2013, and we will see up to four LCS rotationally deploy there 
by 2017. These are just two of a number of ongoing force 
posture initiatives in the region.
    As the rebalance to Asia continues, our commitment to the 
region reassures allies and partners and deters those who would 
undermine stability. U.S. commitment to the region is 
demonstrated by our ongoing activities, our ongoing exercises, 
and senior leader engagement, all underpinned by our physical 
presence.
    I look forward to your questions on these and other topics 
this morning. And please, accept my thanks to this committee 
for all you have done for our men and women in uniform.
    Thank you.
    [The prepared statement of Admiral Pandolfe can be found in 
the Appendix on page 57.]
    The Chairman. Thank you.
    Mr. Kendall.

STATEMENT OF HON. FRANK KENDALL, UNDER SECRETARY OF DEFENSE FOR 
   ACQUISITION, TECHNOLOGY AND LOGISTICS, U.S. DEPARTMENT OF 
                            DEFENSE

    Secretary Kendall. Chairman McKeon, Vice Chairman 
Thornberry, Ranking Member Smith, distinguished members of the 
committee, thank you for the opportunity to testify before you 
today also.
    My responsibilities in the Pentagon are focused in large 
part on maintaining the military technological superiority of 
the United States. As Mr. Lumpkin and Admiral Pandolfe 
described, we face numerous challenges and opportunities in the 
region of the Asia-Pacific. The investments in technology and 
materiel we are making are intended to enable us to continue to 
effectively pursue America's interests in this region, 
particularly in the face of North Korea's nuclear weapons 
proliferation and missile programs and the increase in what we 
call anti-access area denial military capabilities.
    North Korea's most significant development is in the area 
of medium- and long-range ballistic missiles that could be 
equipped with nuclear warheads. Our investments to counter 
these threats fall primarily into the area of missile defense, 
both national missile defense and regional missile defense. We 
are increasing the number of ground-based interceptors at Fort 
Greely, Alaska, have deployed a THAAD [Terminal High Altitude 
Air Defense] missile defense system battery to Guam, and are in 
the process of introducing a second TPY-2 [Transportable Radar 
Surveillance] ballistic missile defense radar into Japan.
    These investments will enhance our ability to defend the 
homeland and Japan. These efforts complement our ongoing 
initiatives to strengthen ballistic missile defense 
capabilities in general, including our SM3 Block IIA standard 
missile codevelopment program with Japan, and work on more 
capable and reliable interceptors, and on the ability to 
discriminate between reentry vehicles and other objects.
    Anti-access area denial capabilities that concern us cover 
a range of conventional capabilities. In the case of China in 
particular, for example, they include space control 
investments; offensive cyber capabilities; conventional 
ballistic and cruise missiles with precision-seekers designed 
to attack both fixed land installations and surface ships, 
including aircraft carriers; air-to-air capabilities, including 
fifth-generation fighters; long-range missiles with advance 
technologies seekers; and electronic warfare systems.
    China is also developing and fielding advanced air defense 
systems. China is pursuing a long-term comprehensive military 
modernization program focused on anti-access area denial 
capabilities. Today, our investments, on the other hand, are 
being limited by budget cuts that fall disproportionately on 
modernization, research and development, and procurement.
    The size of the immediate reductions we are experiencing is 
bad enough. Uncertainty about future budget reductions make 
sizing our force problematic and encourages a slower drawdown 
in our force structure. This in turn causes even larger 
reductions in modernization. This issue was highlighted in the 
Department's Strategic Choices Management Review last year. 
Until we reduce our force size to sustainable levels, we will 
be forced to disproportionately reduce modernization--the very 
investments that provide us with technological superiority in 
the Asia-Pacific region and elsewhere.
    Despite our resource constraints, the Department has taken 
steps to address these threats. Over the past 3 years, but 
especially since the Defense Strategic Guidance was published 2 
years ago, we have been making R&D [research and development] 
and procurement investments focused on the Asia-Pacific region 
and the type of concerns that I mentioned.
    I cannot comment on planning for the fiscal year 2015 
investments. However, I can discuss example fiscal year 2014 
investments that were requested by the President, authorized by 
this committee, and appropriated by the Congress. These 
investments include the following categories: cyber defense, 
man-based key asset defense, surface ship defense, maritime 
surveillance, air dominance including electronic warfare, and 
precision strike.
    I would like to conclude with the following key points. 
First and foremost, on the perspective of technological 
superiority, the Department of Defense is being challenged in 
ways that I have not seen for decades, particularly in the 
Asia-Pacific region. Technological superiority is not assured 
and we cannot be complacent about our posture. This is not a 
future problem. It is a here-now problem.
    Second, our ability within the Department to respond to 
that challenge is severely limited by the current budget 
situation. While we wrestle with the uncertainty caused by 
sequestration and therefore the uncertainty about what force 
size we will be able to afford over the long term, we are 
losing time, an asset that we can never recover.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Kendall can be found 
in the Appendix on page 62.]
    The Chairman. Thank you very much.
    Deterring a rising China and assuring our Asian allies and 
partners are critically important to the security and stability 
of the region. Our allies are wary, wondering if we will follow 
through on the rebalance. The worst thing we can do is build up 
expectations and not follow through. I welcome the focus on the 
Asia-Pacific and appreciate the priority given to our forces in 
the region.
    However, as I said in my previous statement, when President 
Obama announced this rebalance, he assumed the war in 
Afghanistan was winding down and Al Qaeda was on the path to 
defeat. If you look at the headlines over the last year, you 
know that that is not the case. We are struggling now to see if 
we can even get the bilateral security agreement, if we can get 
through the elections, if we can leave a residual force to 
continue the training. So we still have serious problems there.
    So how do we reprioritize the Asia-Pacific while also 
maintaining sufficient force posture in the Middle East and 
Africa, and sufficient force posture to meet the rest of our 
military commitments across the globe, and to respond to 
potential crises, all while our force size and defense budget 
are declining?
    Our commanders in the Asia-Pacific are telling us they are 
being cut less than others. So prioritizing the rebalance does 
not mean prioritizing additional resources for the region; it 
really means being cut less. It also means the other geographic 
commands are being cut more.
    So the question to follow up on is, What exactly is being 
rebalanced if the Department is still cutting PACOM and cutting 
other commands more? Additionally, we have to be worried about 
the volatility in the Middle East and Africa, and the 
likelihood of conflict there.
    In order to support the rebalance to Asia, are cuts being 
made to forces and readiness in the Middle East and Africa? 
This sets us down a dangerous path towards one major 
contingency operation, where, in order to support one region, 
the PACOM, we are exposing another, the Middle East.
    Now, I know that you don't create the budgets. This 
committee doesn't create the budgets. And I think we all have 
these same questions, but we want to hear from you how best we 
can deal with these situations in a really declining budget 
situation for our Armed Forces. How do we make--how do we do 
more with less, I guess is what my question is. How do you see 
us moving forward?
    Mr. Lumpkin.
    Mr. Lumpkin. Mr. Chairman, thank you for the question.
    The commitment to the Asia-Pacific rebalance is steadfast. 
However, I think what we will see as we have requirements in 
other theaters that our timing, and the pace of the rebalance, 
may be subject to adjustments as we move forward, depending on 
what the rest of the world has.
    But we are 2 years into the rebalance, as we are moving 
forward; it was announced in 2012. And we are moving forward, 
and it is happening, as we outlined in our opening comments.
    Admiral Pandolfe. Sir, the situation you point out is very 
compelling. I would offer three thoughts to how to address as 
best we can, within the current set of circumstances, our goal 
of reorienting towards the Asia-Pacific.
    First, we have to continue to prioritize the posture 
changes which are in play now and keep them funded so that the 
reallocation of forces from the Middle East back into, in this 
case, their home bases in Asia-Pacific region and the 
redistribution of forces within the Asia-Pacific region 
continues apace.
    You have seen that with the Navy's intention and the Air 
Force's intention to rebalance their forces to roughly a 60/40 
orientation. Additionally, the Marines are looking at 
relocating some of their forces, and the Army is having their 
forces return to home bases out there, now that Iraq is over 
and as Afghanistan winds down.
    Secondly, I think we need to continue to focus on keeping 
our most capable capabilities flowing into that direction, and 
that is the intent.
    And thirdly, to Mr. Kendall's world, we need to keep a 
sharp eye on R&D dollars to make sure that they are moving in 
the direction that is the most effective regarding the emergent 
challenges from that theater.
    The Chairman. Thank you.
    Mr. Kendall.
    Secretary Kendall. This is a little bit out of my lane, Mr. 
Chairman, but I just want to echo what Mr. Lumpkin said 
earlier, that this is a whole-of-government rebalance to Asia-
Pacific. It is not just the Defense Department, and it is 
certainly not just about forces.
    A great deal of what we are doing is partnership building. 
A great deal of what we are doing is senior leader tension in 
relationship-building in the area. Increased exercises, as 
Admiral Pandolfe mentioned. So a lot of those things can 
happen, even in a reduced-budget situation.
    The Chairman. Thank you. Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. Just seeking a greater 
clarity on what you mean by the rebalance. And I think it is 
more complicated than just: we are going to put more troops 
there. That, I don't even think is really the most important 
part of it, but I want to get some specifics.
    And Mr. Kendall, you mentioned relationship-building. What 
are some of the key elements with whom--who--are we wanting to 
make--build these relationships with? And what are the key 
aspects of U.S. foreign policy that are going to be important 
in the rebalance, aside from the moment on, you know, how many 
ships, troops, or whatever we have in the region.
    When you guys are thinking about, you know, whether or not 
the rebalance to Asia is going to be done, we are going to 
follow through on the commitment, as the chairman is concerned 
about. What are the three things you say that we need to be 
doing to make sure that the region knows that we have done this 
rebalance? I guess, outside of troop numbers, relationship-
building. What is really important to make sure that we know 
that we have a strong presence there and that we care about the 
region.
    Secretary Kendall. I will take my piece of that.
    The Chairman. Sure.
    Secretary Kendall. And I think the others should comment as 
well.
    In my own case, I have been to Asia twice within the past 
year. And it has been largely to talk to our friends and allies 
about cooperative activities.
    The Asia-Pacific region includes India, which is very 
important to us. Japan, South Korea, Australia, Singapore, 
other nations out there that we are building our relationships 
with, where we are giving cooperation.
    In my world of acquisition programs and technology 
development, that is just one facet of it, and I think the 
broader issues are more with the policy side of the house.
    The Chairman. Mr. Lumpkin, you want to take a stab at that?
    Mr. Lumpkin. Absolutely. And I think it goes back to it, 
for three principal things we can do is--and that is to, as I 
mentioned earlier, is to modernize those alliances and 
partnerships, some of them going back a number of years, and to 
re-looking as the security situation in the region is changed, 
to make sure we are opening those dialogues, and continuing to 
update things as they go.
    But also, it is the mil-to-mil [military-to-military] 
relationships as doing--increase our mil-to-mil engagements 
throughout the region.
    And finally, I think another key piece to this is the focus 
on updating operational concepts. As we look at Air-Sea Battle, 
as we look at things of that nature, is to bring things and we 
can harmonize everything with, not only within the Department 
of Defense, but also within the region, based on the security 
concerns.
    The Chairman. All right.
    Mr. Smith. It is not necessarily your lane, but on the 
economic side, obviously we have got the Trans-Pacific 
Partnership hanging out there. How important is that, and 
Admiral, I will ask you as the one in the region the most. You 
know, how important is that to the relationship? And what other 
things are out there on the economic side that are important to 
our rebalance to Asia?
    Admiral Pandolfe. Well, if I could, I would like to add to 
what these two gentlemen said regarding your initial question 
that, you know at the COCOM [combatant command] and fleet 
level, additional initiatives to pursue--pertain to continuing 
the exercise program and expanding it, as we are doing with 
traditional allies and with new friends.
    Conducting operations together, when that becomes called-
for, for instance, the typhoon response was an excellent 
example----
    Mr. Smith. Right.
    Admiral Pandolfe [continuing]. Of working together, and key 
leader engagement are the things that we do in our realm.
    Pertaining to economics, it is not really my sphere. My 
understanding is that the conclusion of that agreement will 
foster economic growth in the area. And to Mr. Lumpkin's 
opening statement, the Pacific rebalance was really a whole-of-
government approach, of which the military was a subset.
    So that your focus on the importance of strengthening 
economic ties, I think, is absolutely critical, and my 
understanding is this vehicle is key to that effort. 
Unfortunately, it really isn't my area of expertise.
    Mr. Smith. Okay. Thank you.
    I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    You all may feel like you are getting a similar question 
several times, but if rebalancing is going to be something more 
than just a marketing label, then something has to change. 
Something has to be done differently than was previously done.
    And so Admiral, I understand the point about ``it is a 
whole-of-government, it is not all DOD [Department of 
Defense],'' but, under, from an operational standpoint for DOD, 
if you had to tick off the three main pieces of evidence that 
show that something has been done differently over the past 
year or so, to show a rebalance to Asia, what are the three 
most significant things you would just tick off, right quick?
    Admiral Pandolfe. I think the first pertains to the 
chairman's comments about force flow.
    The Chairman. Admiral, can you move that mic a little 
closer please?
    Admiral Pandolfe. How is that, is that better?
    So I think I would start by commenting on force flow. 
During the previous 10 years, when we had two major conflicts 
raging in the Middle East, a disproportion of forces flowed to 
that area relative to where they would normally be operating.
    So we became out of balance in terms of an equitable spread 
of force structure, and in terms of resource allocation. So the 
rebalance is really about restoring that balance: getting 
forces more equitably applied and in the case of the Asia-
Pacific, applied to an area where we see great equity 
importance as we move forward.
    And you are seeing the forces flow back into those bases as 
we have now have left Iraq and we are starting to build down in 
Afghanistan.
    Secondly I think, I would look at, again, posture. And 
again, it is more of a policy lane, but the agreements we have 
made to relocate forces from say, Okinawa, and into Guam, et 
cetera, the agreements we have with Australia. Posture is just 
better, we feel, for the emerging challenges in that area that 
we may see in the future.
    And thirdly, it gets back to the point I made a moment ago. 
We are evolving both our exercise program and our engagement 
program so that it focuses on the skill sets that we think will 
need to be strengthened and expanded in the area to best deal 
with the kinds of scenarios that we face.
    So you see a physical movement. You see a quantitative 
adjustment. And you see an area of focus being sharpened, 
looking to the future in this area.
    Mr. Thornberry. How many more people do we have in the 
Asia-Pacific region today than we had 3 years ago?
    Admiral Pandolfe. Sir, I would have to take that for the 
record and come back with a precise answer.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Thornberry. You think we have more or----
    Admiral Pandolfe. If you benchmarked it against the height 
of the wars in Iraq and Afghanistan, I believe forces have 
returned, and the answer is yes.
    I would have to give you a year-by-year breakdown as to how 
that balance adjusted as we drew down in Iraq, and have drawn 
down in Afghanistan; and for instance, the 25th ID [Infantry 
Division] heads home, and these forces go back to their--and so 
forth, go back to their home bases.
    Mr. Thornberry. Mr. Kendall, your last paragraph was kind 
of sobering, I think, about we are not necessarily guaranteed 
to maintain a technological edge, and particularly, with the 
Chinese putting a lot of investment into anti-access/area 
denial [A2/AD], counter-space and cyber.
    And I guess, in this forum, I kind of--I guess I would like 
to know, are we keeping up? Because they are pushing a lot of 
money, resources, and effort, and making some progress, if you 
believe the press. We have budget constraints.
    So the question is, how is this race going?
    Secretary Kendall. Overall, China's military investment are 
increasing in double-digit numbers each year, about 10 percent. 
Their budget is far smaller than ours. But their personnel 
costs are also far smaller than ours.
    Our budget is going the opposite direction. So despite that 
metric alone, it is not positive.
    I came back to the Pentagon about 4 years ago after having 
been away for about 15 years. And every morning I get an 
intelligence brief, which is largely technical intelligence, 
because of my position.
    And I was struck immediately by the nature, scope, and 
quality of the investments that are being made in A2/AD, as we 
call it, anti-access or denial capabilities. And over the last 
3\1/2\, almost 4 years, nothing has changed that initial 
impression.
    The Department has responded to this. And it is very 
consciously responded to this as we have gone through, 
particularly, the strategic review we did 2 years ago.
    As we go through our budget cycles, we are looking very 
carefully at specific commands' requirements and what they need 
for the operations in that area with potential future concerns 
Admiral Locklear might have. And we are prioritizing those 
investments. So we are responding.
    As you mentioned, the constraints on budgets alone make it 
more difficult for us to do that. Couple that with the 
uncertainty about how much force structure we are going to be 
able to retain; the lack of a ramp to get us more gracefully to 
a future budget size you may end up with.
    That all compounds the problem for us. So it is difficult 
to do everything we need to do right now.
    The Chairman. Thank you. Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. I thank the witnesses 
for their excellent testimony.
    I believe that this rebalancing is the right priority for 
the country. And I think that the strategy that you gentlemen 
have outlined to us this morning strikes a sober balance 
between an optimistic context in which our economic relations 
with the emerging Chinese power there are improving, and a more 
pessimistic sense that they may not.
    I want to focus on that pessimism, since that is what 
Members of Congress are really very good at. And without being 
provocative or in any way jeopardizing relationships, let's 
look at the worst-case scenario.
    I think it is the worst-case scenario, in which our 
relations with the PRC would turn quite frigid. There would be 
bellicose behavior by the PRC. And we find it necessary to 
position ourselves for the possibility of some conflict, 
kinetic activities in that area involving the PRC.
    I think that is truly the worst-case scenario. I don't 
predict it. I don't wish for it. But I would like to know what 
we do about it.
    How does this rebalancing position ourselves for that 
worst-case scenario?
    Mr. Lumpkin. I think the key focus of the rebalance here 
that exists there is building the relationships with our 
partners and our allies in the region to make sure we are all 
working together to make sure that this situation that you are 
hypothesizing actually doesn't come to be; that we have 
collective interests, and we work together, again, to make sure 
the security environment doesn't get us to that point.
    Mr. Andrews. But what does that mean in practical terms? I 
mean, let me use this example: To the extent it would be 
necessary to establish significant operating bases in South 
Korea or Japan, how viable is that, given our present posture 
toward those nations and some of the legalities that exist?
    I mean, if we had to turn South Korea into a Kuwait, for 
example, in terms of operational capability, how ready are we 
to do that under this rebalancing plan?
    Mr. Lumpkin. That is a hypothetical that I would prefer not 
to get into, just because I don't think it is helpful to that.
    Mr. Andrews. And I fully appreciate that. Provocation is 
not the goal of these questions; a sober analysis is.
    Let me ask it in a little less provocative way. Are there 
any shortages we have in our force structure, or our naval 
structure, our infrastructure? Are there any shortages that you 
see, and given the present budget realities, that would impede 
our ability to be as ready as we need to be under that worst-
case scenario?
    Mr. Lumpkin. I would defer to my joint staff counterpart 
here.
    Admiral Pandolfe. So these are excellent questions, and we 
would be happy to address them in a closed session where we 
could get into some of the details.
    Mr. Andrews. I would welcome that. I think that is 
appropriate as well. Yes.
    Admiral Pandolfe. So if you don't mind, I will leave it at 
that.
    Mr. Andrews. Sure. Secretary Kendall.
    Secretary Kendall. I don't want to dig the hole deeper, but 
I will give you a very general answer.
    First of all, it depends a lot on the timeframe. The 
situation today, I feel very comfortable about our 
capabilities. I am not sure we would be able to say that in 5 
or 10 years down the road.
    The trajectory for our relationship with China is uncertain 
today. Where are we going to go in the future? One of the 
reasons we are focused on Asia-Pacific is we want to exert our 
best influence, that trajectory, to go in a positive way, and 
not to get into a----
    Mr. Andrews. If we had the ability to make the investments 
that would make you more confident about 5 to 10 years down the 
road, where would we put the first dollar in order to raise 
that confidence?
    Secretary Kendall. I think there are a range of things that 
deserve greater investment than we may be able to afford with 
the current levels. I would like to get into--it is very hard 
for me to talk about some of these without getting into 
classified matters.
    Mr. Andrews. I understand.
    Secretary Kendall. Both with the point of view of our 
capabilities, and the point of view----
    Mr. Andrews. I don't want to, in any way, come close to 
that line. So to the extent that you would like to pursue this 
in a classified setting, I would like that.
    Just again, I think that these grim scenarios are the least 
likely. And I think that is great. But--and our history is 
dotted with circumstances where the grim scenario comes to 
being. And I just want to be sure, as we do this rebalancing, 
we thought about all of them; and in our role, as people who 
write the budget bills, and who do the oversight, that we are 
appropriately sober and aware about those risks.
    I thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you. Mr. Forbes.
    Mr. Forbes. Mr. Chairman, thank you, first of all, for 
holding this hearing, and for this important focus. Gentlemen, 
thank you for your preparation in coming here. I know you have 
all worked very hard and done so much in this area.
    Mr. Lumpkin, much of the debate over American military 
strategy in Asia is focused on the high-end warfighting 
scenarios. And certainly, while this remains central, Chinese 
actions in recent months, including continued patrols in the 
Senkaku Islands, its declaration of ADIZ [Air Defense 
Identification Zone] in the East China Sea, the event involving 
the USS Cowpens, and the new Chinese fishing regulations in the 
South China Sea, have led some observers to conclude that the 
most likely competition in Asia today, and the most likely 
source of a crisis that escalates to conflict, is occurring in 
a state of perpetual low-level contest in what the Japanese 
call the gray zone between war and peace.
    The administration has responded with efforts to build 
partner capacity and strengthen regional institutions. But this 
will take years, if not decades, to bear fruit.
    And beyond the normal kind of roundup the usual suspects 
of, we need more diplomacy with the Chinese, we need to 
encourage our allies to do something, whatever that might be, 
we need to set up more talks, or express our frustration more 
boldly, what specifically can the administration do to defend 
its interest in this gray zone, in terms of acquisition and 
planning?
    And then the second question, does the administration share 
the view that China's actions have violated U.S. national 
interests in the freedom of navigation, the free flow of 
commerce, and the peaceful settlement of disputes in accordance 
with international law?
    Mr. Lumpkin. Thank you for the question, sir. I would defer 
any acquisition, you know, to Under Secretary Kendall.
    But I will tell you that as we look at China in our ongoing 
relationship, China is a rising power. There is no doubt. And 
as they build their military capability, they are extending 
their reach as it goes out throughout the Pacific region. And 
our interaction with them is going to continue to increase, 
just because of the size of--the ocean looks very big, but when 
you get ships out there, and you have people working in the 
same areas, they are going to run into each other. That is just 
the nature.
    Mr. Forbes. But Mr. Lumpkin, I don't think these are just 
accidental run-ins. I think China has taken a policy of more 
aggression, wouldn't you agree with that, over the last year, 2 
years?
    Mr. Lumpkin. Well, I would agree that, again, they are 
going out, and making their presence known in the region. For 
issues--for example, the ADIZ that was created, we don't 
recognize that. We are doing business like we were before.
    So that said, I don't see that U.S. national security 
concerns are being directly challenged. I just think the 
interaction, as we have more assets together in the same area, 
our interaction is going to increase.
    Mr. Forbes. So it would be your conclusion that none of the 
Chinese actions have violated any U.S. national interest in 
freedom of navigation, free flow of commerce, or peaceful 
settlement disputes in accordance with international law?
    Mr. Lumpkin. At this juncture, they have not done anything 
that we recognize as to be a violation of our national 
security.
    Mr. Forbes. Mr. Kendall, if I could--my last minute and a 
half, if you could address maybe the acquisition part of it. I 
am going to follow up Mr. Thornberry's line of questioning. It 
concerns me on the technological situation, too, because 
throughout history, these things have been game-changers when 
they come up and surprise us.
    One of my questions to you, along with what we can do 
additional in acquisition, is when did the Pentagon 
administration first realize that this technological 
superiority was challenged? Because we have had a steady 
decline over the last several years of cuts. So we had, first, 
$100 billion, and then $487 billion. We have been pleading with 
you guys to come over here and tell us the problem.
    When did it first become a concern to you? And how come you 
guys haven't come over here and told Congress way before we got 
to January of last year, ``Hey, this is a big concern, and we 
are worried about it''?
    Secretary Kendall. It became a concern to me personally 
fairly early in my tenure in this position. It became a more 
visible concern, I think, to the Department after the strategic 
review that we did when we were faced with the BCA [Budget 
Control Act] cuts, the first round of BCA cuts.
    So I think that if you look at the documents we have been 
publishing each year on China, which Congress requested of us, 
and that review and the product that came out of that, with the 
rebalance Asia-Pacific is a central piece of that strategy 
that, for some time, we have been talking about this.
    We have also been talking, I think, about the needs for 
modern weapon systems, in general, for quite some time. I don't 
think anybody has been quite as pointed as I may have----
    Mr. Forbes. My time is up. But I would love to talk to you 
more about this and maybe put some response to the record 
because I appreciate all your work.
    Secretary Kendall. I would be happy to do that.
    Mr. Forbes. Thank you, and I just--I apologize, Mr. 
Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, for calling this 
meeting.
    And I have a question here for Secretary Lumpkin. As you 
know, the recently passed fiscal year 2014 defense bill 
provides resources and it loosens restrictions on the spending 
of Japanese funds for the realignment of Marines from Okinawa 
to Guam.
    Now I am a strong proponent of this initiative, and I 
believe that it is the cornerstone of the rebalance effort, and 
it enhances our bilateral relations with Japan.
    Can you comment on the tangible impacts or benefits that 
progress on the realignment that it has to do to our overall 
rebalance strategy? Does progress on this realignment help to 
demonstrate our commitment to allies in the region?
    Mr. Lumpkin. Yes, ma'am, absolutely it does. It does just 
that.
    As we move from Futenma to the Camp Schwab, the northern 
part of Okinawa, we remove the U.S. Marine Corps concentration 
to a more--an area with less population and makes, provides 
less risk to the population there.
    Also, the other key piece that it does is it firmly 
reestablishes Guam as a hub, as we move the up to 5,000 marines 
to that area, as we continue to build more assets.
    So I think it does several things. One is that it does 
continue to demonstrate our commitment to the Japanese people 
and our treaties and partnerships. But also demonstrates to the 
region that Guam is going to be an increasingly pivotal player 
in the area.
    Ms. Bordallo. Thank you. Thank you very much.
    I just returned with our chairman of the Readiness 
Subcommittee, Mr. Wittman, and we had a very thorough 
examination of Camp Schwab and Futenma and all the other camps 
in Okinawa.
    Admiral, I have a question for you. As Readiness 
Subcommittee ranking member, I am concerned about the readiness 
of our military forces in the PACOM area of responsibility. Now 
do the military services have adequate capacities to meet the 
PACOM combatant commander's war plan requirements?
    And if not, what are the consequences? And how is the 
Department working to address these shortfalls? In particular, 
is equipment from retrograde being prioritized to this region?
    Admiral Pandolfe. Well, again, as stated earlier, we really 
can't get into a detailed discussion of war plan execution. But 
I will take on the larger issue of readiness, to which you 
speak.
    And we are concerned about the readiness of the force and 
particularly the consequence of sequestration on readiness. As 
you look at the way the budget cuts unfold--and I am a strategy 
guy, not a budget guy, but I follow this inside my service and 
others--readiness suffers first. And we have seen that.
    The service chiefs, the service secretaries, the chairman 
and the vice chairman have been up on the Hill, they have made 
very clear their concern for the impact of sequestration both 
long-term and even under the latest respite that concern of the 
impact of these cuts on readiness immediately.
    Ms. Bordallo. Thank you. Thank you.
    My last question is for Secretary Lumpkin. I am deeply 
concerned about the current status of relations between Japan 
and South Korea. Actors on both sides have either taken 
unfortunate actions or made unfortunate statements. Now how 
does this current situation impact our training and operations 
in the region? And does this make integration between South 
Korea and Japan more difficult? And how is the U.S. working to 
bridge the gap between our two most critical allies?
    I really believe the U.S. needs to take a more proactive 
role and spend a little diplomatic capital to right the 
situation.
    Mr. Lumpkin. Well, we have a long, multilateral 
relationship, of course, with Japan and the Republic of Korea. 
And we continue to dialogue with them on issues of this nature.
    I would argue that the relationship between the three, 
historically, is much larger and much deeper than these issues 
that we have seen as of late. So I remain very optimistic that 
we will get past some of these obstacles that have recently 
appeared. And I think we are--those dialogues and discussions 
are happening.
    Ms. Bordallo. Well, I hope you are right in that.
    And Mr. Chairman, thank you. I yield back.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you each for 
being here today.
    It is an honor for me to follow Representative Madeleine 
Bordallo. She is such a dedicated Member of Congress, and we 
are very fortunate as we think of the Asia-Pacific area, how 
fortunate we are to have this strategic outpost, the great 
territory of Guam, the extraordinarily patriotic people of 
Guam.
    And so as we look at the Pacific-Asia area, gosh, we can 
begin at Guam. And I am very pleased about that for each of you 
as we plan ahead.
    Admiral Pandolfe, are we appropriately postured to address 
the intelligence challenges presented by denied environments? 
And if not, what investments do we need to make?
    Admiral Pandolfe. Well, clearly maintaining dependable and 
robust what we call intelligence, surveillance, and 
reconnaissance, ISR, is critical, both at the national level as 
well as the operational and tactical levels.
    And as Mr. Kendall can elaborate, we have a set of 
initiatives to sustain our ability to assess the theater and to 
detect problems should they emerge.
    To your point, sir, maintaining that capability is a 
critical focus of investment. And without getting, again, into 
sensitive programs, it is recognized that the realm of 
information management is critical in this age, and we are--
that is one of the areas that we do focus on.
    Mr. Wilson. And Mr. Lumpkin, how do the countries of the 
Asia-Pacific region view the rebalance strategy? How do these 
Asian-Pacific states perceive challenges, such as the fiscal 
constraints facing the U.S. military as it rebalances?
    Mr. Lumpkin. Thank you for that question.
    Our partners and our allies are very pleased with the 
rebalance, as that we are shifting and our focus on the area, 
and they understand through senior leader engagements--the 
Secretary was--visited three times last year in the Asia-
Pacific region. They enjoy the additional dialogue, focus, and 
effort.
    So to date it has been very well received.
    Mr. Wilson. And I have had the opportunity to visit with 
Congresswoman Bordallo, Vietnam, and the capability--capacity 
of POW/MIA [prisoner of war/missing in action] efforts. And it 
is really reassuring to me to see the new relationships that we 
have with the Republic of Vietnam and what this can mean for 
our security.
    For each of you, what is your assessment of the U.S. 
military relationship with South Korea and Japan? And what is 
the potential of building trust and cooperation between these 
two countries to counter the threat of Pyongyang?
    Mr. Lumpkin. Again, the relationship remains very good with 
both. And our commitment on all three sides of this 
relationship is enduring. And I, again, remain extremely 
optimistic that together we are going to continue to do good 
things for the security and the economic prosperity of the 
region.
    Mr. Wilson. And Mr. Kendall.
    Secretary Kendall. My experience of my area with both South 
Korea and Japan has been very positive. Japan, I think, is 
making some very constructive changes in terms of how it is 
organizing and manages its military, and how--its ability to 
interact with partners such as the United States.
    Korea is wrestling with how to best modernize its force, 
given its resource constraints, but working very closely with 
U.S. Command in Korea, as it sorts all that out.
    My own experiences have been very positive with both 
nations.
    Mr. Wilson. Additionally, I am very grateful, I have been 
the chairman of the India Caucus. India, the world's largest 
democracy. America, the world's oldest democracy. What is our 
status currently with the military of India?
    Mr. Lumpkin. Our relationship with India continues to 
blossom, as we find common interests and work together 
throughout the region. We have done our military defense sales 
from a decade ago to now have increased from zero to a 
significant amount. So we have a very good relationship and we 
are continuing to build it.
    Mr. Wilson. And in conclusion, my dad served with Flying 
Tigers, CBI, China-Burma-India. And as I was growing up, he 
told me how capable and confident the people of India are.
    So thank you again for all of your efforts.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    Mr. Lumpkin, I just want to follow up on that first 
question that Mr. Wilson just asked about our allies' sort of, 
you know, belief that this rebalance is tangible.
    The New York Times--and I will be very specific--the New 
York Times reported recently that there is sort of like a 
submarine acquisition and building boom going on in Asia right 
now, where, I mean, everybody from Vietnam, Malaysia, 
Philippines, India, are out buying or building submarines.
    And it would seem that that is kind of happening kind of 
willy-nilly. And maybe in reaction to just sort of whether or 
not our Navy is going to be able to match the policy, again, 
because of the fiscal constraints.
    So again, I just wondered if you could sort of use that as 
an example of whether or not people are in agreement with it, 
as you said, but whether they are still kind of hedging their 
bets with their own sort of build-ups?
    Mr. Lumpkin. Well, I think everybody realizes that a strong 
military-to-military relationship across the entire area based 
on common interests will support everybody equally. I think 
when it comes down to it, the proof is in the pudding. You 
know, in the long term, we have to follow through on everything 
that we have said we are going to do, not just the Defense 
Department, but again, the whole of government.
    So we are 2 years into a kind of a multi-decade rebalance. 
So, we are kind of in the early stages right now. So, arguably 
our partners and allies are waiting to see us come through. And 
I would also argue that they are probably hedging their bets 
somewhat just to make sure that they can, you know, have the 
ability to self-defend on their own.
    Mr. Courtney. Do you see that as a positive development? I 
mean, again, they feel--or that they are building up their 
navies and--I mean, they are our allies and, you know, we 
certainly support their--you know, their right to defend 
themselves. But it seems like, again, we are sort of--there is 
an arms buildup that is happening there.
    Mr. Lumpkin. Well, I actually think--I do see it as a 
positive issue. And the reason why is that we are not 
responsible, therefore, for the defense of everybody. We have 
partners that can provide forces based on common interests and 
it gives us the ability--mechanisms for us to work together 
with our allies and our partners. Again, I don't see it as a 
negative thing.
    Mr. Courtney. A number of you mentioned in your testimony 
the 2014 RIMPAC [Rim of the Pacific] exercises that China is 
going to participate in. That is kind of extraordinary. I am 
trying to get my head around that. I mean, because obviously 
the A2/AD issue is one of the challenges that certainly our 
Navy--naval forces are going to have to contend with. And 
having China participate, can you explain it a little bit, how 
that works and how--you know, the benefits of it in terms of 
having their participation?
    Admiral Pandolfe. The invitation for the Chinese to 
participate in the 2014 RIMPAC is part of the larger set of 
initiatives to engage China, to try to continue to integrate 
them into the family of nations as they become more prosperous 
and to expose them to the international norms by which the 
family of nations respects each other and cooperates in the 
international commons.
    So, this was one initiative in a family of initiatives to 
include visits and talks aimed toward that end. In the 
exercise, they will participate. They will send a ship and they 
will participate in the humanitarian assistance, disaster 
relief, search and rescue, and medical end of the exercise.
    Mr. Courtney. Okay, so those are sort of more in the 
benign, non-military end of operations, I guess. Is that a safe 
description of it or accurate description of it?
    Admiral Pandolfe. Correct.
    Mr. Courtney. Thank you.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    I want to pick up a little bit on where the chairman and 
Mr. Thornberry were kind of going.
    And that is a recognition that we have been at war with 
Islamist extremists, as the 9/11 Commission told us more than a 
decade ago; have done a lot of fighting. That war is still 
there whether we choose to recognize it or not because they 
have chosen to be at war with us. And we see actually growth 
and spreading of some organizations--Al Shabaab, Al Qaeda and 
Islamic Maghreb, in the Arabian peninsula, and so forth.
    So, my point is that didn't go away. And as we start to 
rebalance to the Pacific, I am trusting that there is some 
significant effort in that war. Not that you can't have 
Islamist extremists in the Pacific, but clearly things in some 
parts of the world outside of Pacific Command are still in 
pretty tough shape.
    So, I spent a lot of years in PACOM back in my uniformed 
days and I am a little bit excited about this. But I am 
concerned that we not try to move too quickly. And so, I want 
to go to Secretary Kendall. Some 20 years ago, we were just 
reminiscing, we were working down the hall from each other in 
the Pentagon. And I would argue that the defense acquisition 
system was in not the best of shape back then, and nor is it 
today.
    So, this committee has worked on this. We had a bipartisan 
effort, sort of a special ad hoc committee that Mr. Andrews and 
Mr. Conaway put together talking about trying to straighten out 
a mess where you have got the Pentagon, whose finances are so 
bad it is not even capable of being audited. So, I would say 
that, Secretary Kendall, you have got a really big job because 
you have got an acquisitions system that is kind of a mess. And 
I see the title has changed over the years since I was there 
and you are the Under Secretary of Defense for Acquisition, 
Technology and Logistics. So you have got a pretty big handful.
    And part of that logistics and so forth is you have got 
equipment that is still moving, trying to be moved back and 
forth from Afghanistan. And you have got equipment that has had 
to be replaced. The services have got some pretty aging stuff, 
and so you have got a replacement piece of this. You have got a 
modernization piece. And now you have got a rebalancing piece.
    So, good luck, but my question--what I am trying to get to 
here is how are you, sort of, what is your workload? Are you 
mostly logisticians? Are you worried more about R&D? Where do 
you see this rebalancing changing any focus that you have?
    Secretary Kendall. Interesting question, Congressman. Great 
to see you again, by the way. And I apologize for remembering 
you as an Army officer earlier when you were actually a Marine. 
Excuse me for that.
    Mr. Kline. That hurt, but----
    Secretary Kendall. I know. But I was an Army officer, so 
take it as a compliment.
    Mr. Kline. And I have forgiven you that years ago, Frank. 
It is all right.
    Secretary Kendall. I said in my opening comments that a 
large part of my job was about technological superiority. The 
other large part of my job is about getting as much value as 
possible for the money we spend outside the Department with 
contractors. And that covers all those other areas you talked 
about. It covers all the services that we buy, as well as all 
the products that we buy. It encompasses, of course, 
acquisition, logistics and technology--all of those things.
    I am on a long quest to make improvements in our efficiency 
and effectiveness of our acquisition system. Dr. Carter and I 
when I was his deputy started something called the Better 
Buying Power initiatives. And I have revised that and upgraded 
it and continued it in the last 2 years since I have been in 
the position.
    We are going to keep doing that. I think there have been a 
lot of attempts to solve acquisition problems with silver 
bullets. None of them have ever worked. It is hard work. It is 
professionalism. It is attention to detail. It is 100 different 
things done well and we have got to be able to do all of them.
    And it is just a continuing effort. It is a long-term 
effort. I have a rare opportunity for acquisition executives to 
be in this position over a number of years so I can keep that 
pressure on to improve how we do business. It is particularly 
important right now while we are under the resource constraints 
that we get as much as we can for every penny that we have. And 
that is what we are squeezing our workforce to make sure that 
they do.
    But thanks for the question. It is a very, very important 
part of what I do.
    Mr. Kline. Well, thanks for the answer. And I meant it 
seriously, not flippantly, when I said good luck. You have got 
an awful lot to do. We want to be helpful and we will hopefully 
be able to continue to work with you to help improve that 
acquisition system. And then, of course, we have got the whole 
challenge of resources which we will be working on.
    Mr. Chairman, I yield back.
    Secretary Kendall. If I could, Congressman, I just want to 
point out what Congressman Thornberry is doing in acquisition 
reform. We are working closely with him on that and we are very 
happy to be helpful as the committee moves forward.
    The Chairman. Thank you.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    Gentlemen, could you indicate what impact, if any, do you 
anticipate the downturn of the Chinese economy would have on 
their long-term military budgets?
    Mr. Lumpkin. Again, this is kind of speculation, is that my 
sense is that they will have to make some tough choices at that 
juncture as far as what do they resource--they will be in a 
similar situation as we are looking at as how do they spend 
their money. And my sense is right now because they are in the 
growth phase, they will probably be unlikely to level off for 
some period of time. But I think there is going to be some 
trade-space they are going to have to sit down and really 
consider on what they are going to do in the long term.
    Mr. Enyart. What is the relative size of the Chinese 
military budget compared to our military budget?
    Mr. Lumpkin. I don't know that off the top of my head. I 
could take that for the record unless somebody here has that.
    Secretary Kendall. The published number is about a quarter 
of ours, but that is considered to be way under what they 
actually spend. The other thing to factor into the equation 
with China is that their personnel costs are much less than 
ours are. That skews the results a little bit.
    Mr. Enyart. You had indicated that in an earlier answer, 
Mr. Kendall, could you tell me what the difference between 
personnel costs amounts to?
    Secretary Kendall. I will take that for the record, 
Congressman.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Enyart. Thank you.
    Could one of you indicate for me what are the strategic 
implications of the aging Chinese population, and additionally, 
the strategic implications of the aging Japanese population?
    Mr. Lumpkin. Candidly, sir, that is outside kind of my--
what I deal with as far as the economics and the population, 
but I could take that for the record and do some homework and 
work with the interagency to try to get something back to you.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Enyart. And can one of you indicate to me at what point 
the Chinese fifth generation fighter will be fully operational?
    Secretary Kendall. I think we would have to get into 
classified matters to talk about that, but it is the next few 
years in general.
    Mr. Enyart. And this may verge into classified, too, but 
could you indicate what you anticipate the eventual size of the 
Chinese fifth generation fighter fleet to be and at what point 
do you expect it to reach that culminating point?
    Secretary Kendall. Those estimates would definitely be 
classified, Congressman.
    Mr. Enyart. Okay.
    Do we anticipate that the Chinese will be exporting the 
fifth gen fighter?
    Secretary Kendall. In general, we would expect the Chinese 
to have export versions of the equipment that they build. That 
is their pattern. I don't know if would be exactly the same or 
what time they would export it, but we can expect it at some 
point in time.
    One of the concerns about China is not just that they are 
modernizing. We don't anticipate a conflict with China, 
certainly. But that they do export, and the focus systems that 
they develop, we would face potentially with other people.
    Mr. Enyart. And at what point do you anticipate those 
exports might begin and to whom?
    Secretary Kendall. We would have to get into classified 
data to talk about that.
    Mr. Enyart. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Secretary Kendall, I want to come back and talk 
specifically about some of the intelligence, surveillance, and 
reconnaissance programs in the pivot. I was glad to hear you 
talk about value for the money. I represent Robins Air Force 
Base, which is home of the J-STARS [Joint Surveillance Target 
Attack Radar System]. It is certainly a battlefield management 
program that we couldn't have operated without high-demand, 
low-density.
    And I would like to, you know, hear your thoughts on that 
platform as it relates to the Asia-Pacific region. Certainly 
their ability to give us the tracks and the targets that we 
need. And I would like to know, you know, when it comes to 
these ISR platforms, one of my concerns is that when we have a 
platform that is paid for by one branch, but predominantly 
supports the mission of another branch, as we get into the 
budget decisions, you are going to be the one that has to 
balance that. And, wondering if you have seen any difference 
there with what the branches have recommended in the future for 
ISR platforms.
    Secretary Kendall. Well, in general, I think the importance 
of ISR was highlighted by Admiral Pandolfe earlier. It is of 
course, important to us. It is particularly important in the 
Pacific region because just of the geography, the expanse of 
the Pacific region.
    We are and have been considering all of the programs that 
are associated with that. I am not going to be able to get 
ahead of the Secretary and the President in terms of announcing 
budget decisions or talking about them, really.
    Mr. Scott. Sure.
    Secretary Kendall. But, I will say that we are conscious of 
ISR requirements from our combatant commanders, and they are 
looked at both by the joint staff and at the Secretary and 
Deputy Secretary level to determine what the overall needs of 
the Department are and how to best meet those.
    We do try to balance that across, and Admiral Pandolfe may 
want to talk a little bit about allocation of joint ISR in 
response to your question.
    Mr. Scott. Thank you.
    Admiral Pandolfe. Well, once it is acquired and it is in 
the inventory, we have a global management process by which the 
competing requirements of the different combatant commanders 
are adjudicated and prioritized to try to ensure that the most 
critical needs are met for all of them, and that if there 
happens to be a particular focus at the moment that is driving 
a greater amount of need for that theater or for that time, 
that the emergent requirement is fulfilled as well.
    So it is both. It attempts to be both equitable and 
somewhat predictable to allow for program management and 
budgeting. But also flexible enough to respond to emergent 
requirements.
    Mr. Scott. I would like to again reiterate, you know, the 
J-STARS have been flying consistently for decades now. The 
battlefield management platform, I think, is extremely 
important to all branches. It is pretty much, you know, the 
guys on the ground, the Army guys, rely on it a lot. And I just 
want to make sure that when we get into reductions in spending 
that we are looking at the overall operations and the mission 
for the country as a whole and not getting into conflict among 
the different branches, if you will.
    Secretary Kendall. I can assure you that we are looking at 
it at the joint level, at the departmental level, and 
considering the whole, total requirements that we have.
    Mr. Scott. Well, with that said, Secretary, if you have a 
chance to come to Georgia, I would love to take you on a flight 
on a J-STAR. Show you.
    Secretary Kendall. I have some history with J-STARS. I was 
in the Pentagon when we deployed it into the first Gulf War.
    Mr. Scott. Right.
    Secretary Kendall. And we are lobbying very hard to see it 
deployed there. Also had a ride about a year ago and really 
enjoyed it very much.
    Mr. Scott. Right.
    Thank you very much. Mr. Chairman, I yield the remainder of 
my time.
    The Chairman. Thank you very much. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    Gentlemen, thank you for your service.
    There are troop--we have withdrawn troops from Iraq. We 
will have all of our combat troops home from Afghanistan by the 
end of this year. Meanwhile, conflict continues to either rage 
or percolate throughout the Middle East. And we have had a 
diminution of resources to our Defense Department. And now, we 
are rebalancing to the Asian Pacific. What does this rebalance 
mean to our allies in the Middle East? What are the 
ramifications of the rebalance to our ability to sustain 
whatever level of operations are called for in the Middle East, 
and what are we looking at for our future?
    Mr. Lumpkin. Thank you for that question, sir.
    As you are keenly aware, the way the Department on the 
military side is organized is by geographic combatant 
commanders. So each one of them has not only a focus, a long-
term focus on their specific regions, and the two that you 
bring out specifically are the Pacific and the Middle East. So 
we have CENTCOM focused on there, who is always working to 
planning pieces and identifying the force requirements, and we 
have the same thing in AFRICOM, focus in Africa, and throughout 
the globe.
    So it is certain that there is a finite amount of military 
assets to cover the entire, you know, the globe, and the 
requirements out there will always supersede the demand signal, 
it will supersede what we have in our inventory. But we do have 
the ability to make those decisions to put the assets where 
they best serve U.S. national interest.
    So I do not believe that we are going to see a significant 
degradation in capability in the Middle East or Africa based on 
the rebalance.
    Mr. Johnson. Anyone else care to respond?
    Admiral Pandolfe. I would echo Mr. Lumpkin's comments that 
if you refer to the Defense Strategic Guidance, it points out 
two particularly critical parts of the world: one is Asia-
Pacific, and the other is the Middle East. Our staying engaged 
in that part of the world is also critical.
    And you know, to use your word, we are working very hard to 
sustain those commitments, to make sure that our allies and 
friends in that area understand that we remain dedicated to 
also addressing the challenges of that part of the world.
    Mr. Johnson. Thank you.
    Mr. Lumpkin, beyond its overt military capabilities, how 
does China utilize its economic and diplomatic instruments of 
power to wield influence in that region, and are those 
instruments effective?
    Mr. Lumpkin. There is no doubt that China is on the 
economic rise and therefore, it affects relationships, you 
know, free trade, and trade arrangements within the region.
    So economically, as they continue to realize the growth 
that they are realizing, they have cash, and they have assets, 
and they have the ability to reach out and touch people 
throughout the region. So there is an effect, and again, I 
think that is why, as we look--we need to look at the entire 
region to make sure that our best interests are realized, and 
that we work to support with our allies to make sure our end 
states are achieved.
    Mr. Johnson. All right. Thank you. I will yield back.
    The Chairman. Thank you. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman, and I appreciate this 
panel particularly. I want to thank Mr. Kendall for his 
graduation from West Point. I am a proud dad of two West Point 
grads, so it means an awful lot.
    Secretary Kendall. Beat Navy.
    Mr. Nugent. Go Army, beat Navy. It hasn't happened in 13 
times, but we are pulling. Last time we won, was, my son was a 
plebe at West Point. My older son.
    But getting on to the questions, I have many, but one is--
it relates to CHAMP [Counter-electronics High Powered Microwave 
Advanced Missile Program]. And I am sure you are all aware of 
what CHAMP is. That is a non-lethal weapon. It uses a microwave 
emitter to knock out electronics of an enemy without causing 
damage to people or structures.
    Now, I know the Air Force has successfully tested CHAMP on 
a cruise missile delivery vehicle in Russia. Fitting that 
weapon to cruise missiles is cheap for us to produce. We have 
them in our inventory, and it will only take about 18 months to 
start delivering CHAMP cruise missiles to PACOM.
    Where do we stand? I know the Air Force has talked about a 
different delivery vehicle which is obviously years down the 
road in acquisition and cost. Where do we stand in utilizing 
the current platforms that we have available to us?
    Secretary Kendall. Congressman, I am going to have to take 
that one for the record.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Nugent. Okay.
    Secretary Kendall. I don't have a good answer for you right 
now, sorry. I am aware of the program but I am not that 
familiar----
    Mr. Nugent. I understand. There are a whole bunch of 
questions that can be asked, and I understand that you can't 
know all the answers, but I do appreciate you taking that for 
the record.
    Secondly, there is--the Air Force--and this may be off-
topic somewhat so you may have to answer this also, but the Air 
Force, in its allocation this year for a replacement of the, I 
believe it is the Pave Hawk, or the Pave.
    Secretary Kendall. Yep, Pave Hawk.
    Mr. Nugent. That is our search and rescue helicopter that 
was, in 2000, it was indicated that that bird should be 
replaced. And we know that we have issues in regards to keeping 
those in the sky, and it is particularly troubling for me as to 
the Air Force's position as to, are we going to actually do 
that contract starting this year? Because it is budgeted for.
    Because I want to make sure that, you know, our airmen and 
soldiers and marines that are in combat, if needed, we have the 
resources to rescue them. So I want to know, and that may have 
to go to the record also, but could you comment on the 
acquisition of those?
    Secretary Kendall. In general, we had a procurement in 
process for that capability, but in the budget situation we are 
in, we had to revisit whether that could continue, and I am not 
going to be able to get into what is in the fiscal year 2015 
budget at this point. It hasn't come out yet, so----
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Nugent. And lastly, on the issue of the National Guard. 
Obviously, the National Guard is of utmost importance to 
States. It is very important to the State of Florida, obviously 
the readiness. Deployments of National Guard resources are a 
plus for those guardsmen, because of particularly, on the 
training aspect of it, it gives them the ability to learn their 
craft, trade craft, better, particularly for our aviation 
assets.
    Do you see that being utilized--National Guard rotations--
to PACOM to assist, obviously National Guard, but to assist in 
the mission of PACOM?
    Secretary Kendall. I am sorry. I think we are going to have 
to take that one for the record also.
    [The information referred to can be found in the Appendix 
on page 71.]
    Mr. Nugent. Okay. Well, I am sorry I stumped the panel. So 
three for three. So once again, we will leave it at that. And 
go Army, beat Navy. So thank you very much.
    I yield back.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    I only have a couple of questions. A lot of good questions 
have been asked today. I got here late, so all my questions or 
most of my questions were asked. But a few that were not.
    First off, for Mr. Kendall, in your comments, your written 
comments to the committee today, near the end you discussed the 
budget situation a little bit and challenges they have with 
regards to maintaining the investment in the technology that we 
need.
    I am just curious. I am not asking you to divulge what is 
in the 2015 budget. But my understanding is that the direction 
the Pentagon received recently was to find a certain percentage 
cut in order to invest that into readiness, including cuts in 
technology.
    So I am curious, generally, if that is the case? Second, if 
the debate within the budget, since in 2015 the administration 
will have about $1 trillion and $15 billion to split among the 
Defense Department and domestic agencies, if the budget deal 
that we passed in December holds. That is the discretionary 
budget.
    If that, in fact, does hold, how much of this debate about 
the budget within the Pentagon has to do with Congress and how 
much of it has to do with the choices the Pentagon is going to 
have to make itself given the budget limitations?
    I mean, in other words, is technology going to win or is 
readiness going to win?
    Secretary Kendall. Interesting way to put it. I think we 
will--I don't want to get ahead of the Secretary, but what we 
will try to do is strike the best balance that we can. We would 
do that under any circumstances, I think.
    The problem that the Department has is a combination of the 
degree of cuts from what we wanted to meet our strategy 2 years 
ago, and the quickness with which those cuts occur. This is the 
problem of a lack of a ramp that was highlighted in the 
Strategic Choices Management Review.
    There is also the other factor, which is the uncertainty 
about where we are going, which as I mentioned in my opening 
comments--I am not sure if you were here--makes it very 
difficult for us to plan.
    I have never in--I have been doing this for about 40 years 
now, and I have never seen such a big disconnect between our 
budgets and our budget requests--and the potential that we 
would get back from the Congress. A $50 billion gap between 
what we would request and what we would get back.
    Our budget isn't just requests for money, it is also our 
plan. It is what we intend to try to execute. And it is what we 
think we need. So this large disconnect is creating a lot of 
problems with us, from a planning perspective.
    In one sense, the budget is also the opening round of a 
negotiation over where we are going to end up. So it has that 
feature, as well.
    What we have been wrestling with, and the Bipartisan Budget 
Act gave us a little bit of help, certainly in 2014, less so in 
2015, is how do we work our way through this, deal with this 
uncertainty, deal with the potential lack of a ramp, knowing 
what we would like to have to meet our strategy and what we 
might actually end up? It is a real dilemma for the Department.
    The Secretary will be over here to explain to you how he 
has tried to resolve that, he and the President have tried to 
resolve that, in a few weeks. And I don't want to get ahead of 
what they are going to come over here to talk about.
    Mr. Larsen. Thanks.
    And then probably for Mr. Lumpkin, could you talk about, 
with regards to the rebalance, how we try to--I don't know the 
term--how does the U.S. try to massage itself into existing 
historic tensions that already exist in that region, even among 
allies? And how that impacts our ability to implement 
rebalance?
    Mr. Lumpkin. It is a great question because that is 
frequently what you are kind of doing, to use your word, 
massage. It is how you work the relationships to optimize the 
end states and to make sure that we are all working based on 
collective interests.
    So I would argue that it is a process and it is done 
through increased dialogue and discussion. And this is why our 
multilateral partnerships are so important. Because you can 
bring multiple people to the table at the same time and find 
those common interests and to work to overcome those issues 
that you described.
    Mr. Larsen. Is there any--do we ever get any resentment or 
any sort of blowback sort of under the theme of ``if you only 
knew,'' ``if you really understood it, America, then X?''
    Mr. Lumpkin. I haven't heard of any specifically, but I 
will tell you that it is a process. You know, it is just 
building on--there are personal relationships that go back 
decades, people who have been working these issues. And so--
some discussions are more candid than others. And when you can 
achieve that where you are having very candid discussions on 
the issues is where you make the greatest gains.
    Mr. Larsen. Yes, there are just some issues outside of this 
committee's control or even outside of the administration's 
control we just have to work with.
    Mr. Lumpkin. Correct. Yes, sir.
    Mr. Larsen. Okay. Thank you so much. I appreciate it.
    I yield back.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you all for 
being here.
    I wanted to start off by asking a rather parochial question 
about San Diego. And if you could respond, obviously with a 
pivot to the Pacific, I think that San Diego has some 
expectations about the number of carriers in the future and 
also about the number of additional ships and high-technology 
ships in the region.
    Could you respond in terms of whether or not that makes 
sense for San Diego? And whether or not we are sending that 
message to others as well that we are shifting some of our 
operations there?
    Mr. Lumpkin. Thank you for that question.
    San Diego, of course, where I was born and raised, is a 
critical location for the Asia-Pacific region. We have the 
Navy, the Marine Corps team, RIT, working throughout the area. 
And we have a long and deep history there.
    I don't have--you asked a question about carriers. I don't 
have that off the top of my head, but I can go ahead and take 
that for the record and what it will look like today and in the 
future.
    But I do understand that there will be carrier swaps going 
on as we are doing refueling and things of that nature within 
Japan itself, but I can take that one for the record for you.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mrs. Davis. So we certainly recognize the necessity in 
terms of maintenance and other issues, but I guess what I am 
wondering about particularly is the message that we are sending 
that we are beefing up our Pacific position and the role that 
San Diego might play in that.
    Thank you. I appreciate it.
    I also wanted to just to turn to it a second. We have been 
focusing a lot on budgetary issues, quite understandable, and 
certainly the concerns that we had over sequestration.
    But I wanted to also ask about the increased military 
presence in the Pacific--PACOM AOR [area of responsibility], 
affecting deployment lengths, troop morale, and military 
families. We would anticipate more military members would be 
stationed overseas or outside the continental U.S.
    And how are we planning for that and anticipating the need 
that that is going to have on our personnel issues?
    Admiral Pandolfe. Well, as we withdraw from Afghanistan, 
and we have completed the withdrawal from Iraq, we have reset a 
portion of the force, which has allowed us to gain some 
breathing space in the personnel tempo, which has been very, 
very high, as you know, for a number of years.
    So there is some good news there. Counterbalancing that, 
however, is the fact that we are simply not as large as we used 
to be in the services. And as mentioned earlier, several times, 
the world remains a complex place, which generates significant 
demand on presence, not just in the Asia-Pacific region but 
elsewhere.
    So the services are working very hard to try to find the 
balance between having the right forces forward to deter 
conflict and to respond effectively to crisis, but also 
maintain a quality of life for our volunteer force that would 
allow them to remain in for a career, and equally or more 
important, make sure their families get to see their loved one 
and they have a good quality of life.
    Without getting into the next budget, that tension is going 
to be something that we have to keep a very close eye on.
    Mrs. Davis. Are there issues, as well--we talk about the 
Pacific and we are obviously focused on the Navy, the Marines 
in the Pacific. But in terms of how we balance and align in the 
Pacific theater, we are also concerned about the Army and the 
role that they would be playing differently in terms of that 
joint force. How does--what are the questions, then, that have 
to be answered in that regard, as well, that would have a real 
impact on how we move forward?
    Admiral Pandolfe. So, so, you are absolutely right. The 
theater is heavily maritime and aerospace. My Air Force friends 
would tell me. And so----
    Mrs. Davis. Yes, of course.
    Admiral Pandolfe [continuing]. Both the Navy and the Air 
Force are moving 60 percent of their force structure into the 
Pacific area by 2020, into that timeframe.
    But the Army and the Marine Corps are also changing. The 
Marine Corps, as you know, is redistributing its footprint and 
addressing its emergent missions in a more efficient way, it 
feels, both in terms of operations but also in terms of host 
nation sensitivities, in the case of Okinawa.
    For the Army, as I understand it, they have elevated the 
Pacific Army Commander to a four-star position. He is focusing 
on interacting with his counterparts in a heavily militarized 
part of the world. He has proposed some innovative ideas about 
how to train with his counterpart forces and train his forces 
to be complementary and effective, given the kinds of scenarios 
which we can foresee in that part of the world.
    The Chairman. The lady's time has expired.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman.
    And thank you, gentlemen.
    Mr. Lumpkin, I noticed in your testimony on page 4 at the 
top, you talk about our decade-long relationship with fighting 
side-by-side with Australia in Iraq and Afghanistan, and 
mention the Marine deployment to Darwin, and also the agreement 
for U.S. military aircraft to use Royal Australian Air Force 
facilities in Northern Australia. Is there any agreement with 
regard to--Admiral, you can answer this as well--with regard to 
the Navy and ships using the Australian ports for exercises 
that are occurring?
    Mr. Lumpkin. I will have to defer to you, Admiral.
    Admiral Pandolfe. We have been making port calls to 
Australia for many, many years. And they are a wonderful ally. 
My understanding is that the negotiations as to the longer-term 
relationship with Australia are still taking place.
    So the focus of the effort has been on the rotational 
Marine presence. And I am really not in the position to comment 
beyond that.
    Mr. McIntyre. Okay. Is that something you could get back to 
me separately?
    Admiral Pandolfe. Absolutely.
    Mr. McIntyre. Could you do that in the next 5 business 
days?
    Admiral Pandolfe. Yes, sir.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. McIntyre. Okay. That would be great. Thank you. And 
then to all of you, I wanted to just develop this a tad more.
    We know that among the strategic initiatives that DOD is 
developing, is the new Air-Sea Battle Concept that is intended 
to increase joint operational effectiveness of U.S. Naval and 
Air Force units, particularly in operations for countering 
anti-access strategies.
    What I am wondering is how are we resourcing this concept? 
And what next? What new next-generation capabilities will be 
required for these resources to be met?
    Admiral Pandolfe. I will start with the conceptual side, 
and I will hand off to Mr. Kendall for the specifics of the 
resourcing.
    Air-Sea Battle is an operational concept. And the thrust of 
it is to find efficiencies, both business efficiencies and 
operational efficiencies between the services--specifically, 
the Navy and the Air Force, but other services as well--to 
ensure that we can maintain access around the world, wherever 
it might be threatened.
    So Air-Sea Battle is something we are working on. It is a 
service-level initiative. And again, it is about planning and 
investing wisely to generate capabilities that are 
complementary, and optimized for the kinds of challenges we see 
coming at us in the decades ahead.
    Mr. McIntyre. And what are we doing to resource it for the 
new next-generation capabilities?
    Secretary Kendall. The resources, it is more about how we 
use equipment than it is about what we buy. But there are some 
resource implications.
    Increasingly, we fight as a network force. And to a degree, 
would make that network force joint, we could be much more 
capable. So systems like the F-35 will be coming into the 
inventory with the ability to fight as a team with other 
assets, including cost-service assets, much more capably than 
we can do today; also, some things in the command, control, 
communications world that we can do, dealing with current 
inventory.
    The Navy has a concept called NIFC-CA [Navy Integrated Fire 
Control-Counter Air], which is basically integrated fire 
control for their forces, which we can expand. We are looking 
at integrated air and missile defense capabilities as well.
    So there are a number of things we can do that essentially 
enable the kind of cooperative operations that are envisioned 
by the Air-Sea Battle Concept.
    Mr. McIntyre. There were some comments in your remarks 
about space capabilities and reconnaissance in working, for 
instance, with the Australians on space. Does that mainly deal 
with defensive measures, or is that more research and 
exploration measures, with regard to space?
    Secretary Kendall. We do work with the Australians in a 
number of areas. Space is one of them. I can't get--I am not 
sure I can get into much more detail than that without getting 
into classified--trying to be careful here.
    But they are one of our closest partners. And that is one 
of the areas where we are cooperating.
    Mr. McIntyre. Thank you. Thank you, Mr. Chairman.
    Mr. Forbes [presiding]. Ms. Speier is recognized for 5 
minutes.
    Ms. Speier. Mr. Chairman, thank you. And thank you, 
gentlemen, for your testimony. I was able to hear your 
testimony, but had to leave to participate in another committee 
hearing. So I apologize if these questions have been already 
asked.
    But let me start by asking the question. There appears to 
be confusion by our Japanese allies about how much we are 
willing to commit to the Asia-Pacific corridor. And all intents 
and purposes, it has been robust, even though there has been 
sequestration in other areas.
    So I guess my question to each of you is, how do we go 
about clarifying that to them so they have more confidence in 
our commitment there?
    Mr. Lumpkin. We have regular dialogue with our Japanese 
counterparts on the rebalance and what we are doing 
particularly with regard to Japan; hence, the Futenma 
replacement facility movement, moving U.S. Marine Corps assets 
out of Okinawa.
    So I feel actually quite comfortable that they are 
cognizant----
    Ms. Speier. There is no longer confusion----
    Mr. Lumpkin. Yes. I don't see the confusion with where we 
are going or what we are trying to do.
    Ms. Speier. All right. Mr. Kendall, in your testimony, you 
highlighted the P-8A [Poseidon] surveillance aircraft. And the 
Director of Operational Testing and Evaluation [OT&E] found the 
aircraft as not effective for the mission of hunting submarines 
or performing reconnaissance over large areas due to a number 
of, quote--``major deficiencies.''
    So tell me why the Department decided to go into full-rate 
production anyway?
    Secretary Kendall. The P-8 is being fielded in incremental 
capabilities. There is a pre-plan--this is all part of the way 
the program is laid out. It was laid out to fill a certain 
level of capabilities initially and then to add more 
capabilities in the next increment.
    That increment is ongoing. It is in development. So the 
capabilities that the OT&E report talked about not being there 
are underway, they are coming. They just haven't gotten to that 
phase of development in the program yet.
    The things that we did put in are working as expected. They 
are doing what we wanted them to do. That was our highest 
priority. We are going to move on to a wider area of 
surveillance capabilities within a few years.
    So the aircraft actually is, I think, a relatively 
successful program, despite the tone of that report.
    Ms. Speier. So you just dispute the report outright?
    Secretary Kendall. The report is factually correct, but it 
doesn't acknowledge the fact that this was the plan. The plan 
was to develop a certain set, and fill a certain set of initial 
capabilities for local anti-submarine warfare [ASW] 
capabilities, and then add capabilities to that in increments.
    It is an acquisition strategy that has been used in a 
number of programs to--instead of trying to go for everything 
at once, you get the first capability first, and then you 
incrementally add more to that. That is exactly what we are 
doing. That was exactly what we had planned. And it is being 
executed successfully. We just are not there yet.
    So he is right, in that we do not have all the capabilities 
we want to have. But we are going to get them.
    Ms. Speier. Okay. So if there are major deficiencies right 
now in this one mission component----
    Secretary Kendall. But the other things that it was----
    Ms. Speier. The others are working admirably.
    Secretary Kendall. It is local area, ASW, is the initial 
capability, essentially. And we get wider-area capabilities as 
we get additional centers, and additional processing, so on, on 
the aircraft. But that is underway. That is in process.
    Ms. Speier. But have we continued the production of this 
particular component, even though it has major deficiencies, is 
my question?
    Secretary Kendall. When you say ``deficiencies,'' what that 
means is it can't do certain things. It doesn't mean it is a 
bad design. It doesn't mean that there are problems with the 
airplane. It is a very good product.
    It just hasn't put on to it yet the things that it needs to 
have on it to do the other jobs it is going to do. So as we put 
them on, it will not have those deficiencies. But they are not 
there yet, but they are going to be put on.
    Ms. Speier. Okay. The report also speaks to the fact that 
the cybersecurity is quite poor. And maybe this has already 
been discussed during the hearing. But the report says, ``Red 
Teams were consistently able to penetrate and exploit networks 
during testing, which showed that local network defenses are 
insufficient to protect against a determined or well-resourced 
cyber adversary. An execution of wartime missions should be 
considered at moderate to high risk until it can be 
demonstrated to be resilient.''
    I just left a committee hearing where our total focus is on 
whether there are cyber issues relative to the Affordable Care 
Act. And here, we already have a report that says this is a big 
problem.
    And I guess my question to you is, what are we doing about 
it?
    Secretary Kendall. We are trying to strengthen our cyber 
defense capabilities across the board. Anything that hooks up 
to the Internet has some vulnerabilities built into it. And we 
put protections in place, but it is a constant struggle to stay 
ahead of potential adversaries, or people who are actually not 
potential adversaries, they are current adversaries. They are 
trying to get into our systems.
    So we are continuously trying to improve the level of cyber 
defense that we have. But many of our systems do need to tie 
into commercial applications for supply reasons and so on.
    The other thing that happens often in the red-teaming that 
OT&E does is that they are able to talk their way into the 
system somehow, gain the confidence of somebody and get into 
it. And that is one of the things that they often point out.
    It is more of a training issue than it is anything else. It 
is what we call ``hygiene,'' where people who operate the 
system have to understand their jobs, be much more careful 
about who they give access to. That is the other thing we 
actually have to work on more.
    Ms. Speier. Mr. Chair, my time is expired. But I would like 
to have a more specific answer in terms of what tasks are being 
undertaken to prevent the cyber break-in.
    Mr. Forbes. Thank you. So they can submit that for the 
record or in a private briefing, Ms. Speier.
    [The information referred to can be found in the Appendix 
on page 70.]
    Ms. Speier. Thank you.
    Mr. Forbes. Gentlelady's time is expired. Gentleman from 
Virginia, Mr. Wittman, is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
our witnesses for joining us today.
    Secretary Kendall, as you know, I am a proponent for a 
robust naval fleet. One of the things that concerns me these 
days is making sure we have significant industrial base to be 
able to do that, and make sure we have a significant capacity 
and capability in our fleet for the future.
    In that context, in these financially strained times, in 
making sure, too, that we are keeping in mind timeliness, how 
can we not continue the LPD-17 [Landing Platform Dock] class?
    And I say that because we have now the LXR class to replace 
the LSD [Landing Ship Docks]. The LSD is an aging class. Those 
ships are going to be retired.
    We have before us an opportunity to be able to make an 
efficient decision to make sure we meet the needs within our L-
class ships, making sure that we meet the requirements that are 
out there, both in the rebalance to the Asia-Pacific, but also 
where other needs are.
    And if we are really going to have a wise strategy to 
optimize our investments and make sure that our strategy going 
forward provides us the ships that we need, it seems like, to 
me, would be foolish to start from the keel up to start another 
class of ships that takes years to get to actually being at 
sea, and we are not going to take advantage of the economies 
that we have already gained by developing the LPD class to put 
a replacement in place for the LXR, or the replacement for the 
LSD class of ships.
    Can you give us your perspective on where we need to go to 
optimize our strategy as far as shipbuilding, especially in 
light of constrained budgets and the timeframes that we are 
talking about, in trying to create a replacement class for LSD?
    Secretary Kendall. Well, first of all, the amphibious 
shipping is important to us. And in the context of the 
rebalance to the Asia-Pacific, obviously naval forces are 
important to us. That said, we have to live within our budget 
constraints.
    I am not going to be able to comment on that specific plans 
at this point just because the budget hasn't come out yet. We 
are not prepared to do that. I can say that in the case of some 
of our amphibious shipping that the Navy is re-looking at some 
of their requirements to try to determine the best way ahead 
and some of that work is still ongoing.
    Do you want to comment on that, Admiral?
    Admiral Pandolfe. As you know, sir, the LPD-17 is a superb 
ship. It had a little bit of a rough start. We have worked 
through those problems and it is an excellent ship and it fits 
within the family of ships. So, the Navy, and I am a joint 
staff officer at the moment, but I am sure they are looking at 
a number of options for the LSD replacement. But I cannot 
comment on what the preferred option could be. I don't have 
insights into that and at this point in the budget cycle, it 
wouldn't be proper.
    Mr. Wittman. Well, let me ask you this--just your 
professional comment, then, from both you and Secretary 
Kendall. Based upon the cost of going through the development 
and design and then ultimately the build of a new class of 
ships, and knowing what the requirements are for the LXR, 
knowing what we have, and knowing the timeframe it takes to put 
a new ship class to sea.
    And as you spoke about, the challenges in putting a new 
ship class through the paces to actually get it to work out the 
bugs, do you believe that using a whole form like the LPD in 
looking at the LXR class is a viable way to go about making 
sure that we look at cost and timeframes to get the new ship 
class to sea?
    Secretary Kendall. I think we are looking at--the Navy is 
looking at a range of options and it is--their re-look at all 
of this is driven by affordability constraints. So, we will be 
looking for the most cost-effective option when we make a 
decision. And if that is one of the ones that should be on that 
list to be considered, then I hope we will do so.
    Mr. Wittman. Very good.
    Admiral, let me ask, I was just in the PACOM AOR, had 
meetings there with our allies. And we have made a number of 
trips there. And the big thing that we are hearing back from 
allies there is, you know, we hear the words of rebalance, but 
we want to see what the commitment is as far as resources. We 
want to make sure that you have your forces here that are not 
just here, but are properly sized, properly trained, and 
properly equipped for the missions there in that particular 
AOR.
    And knowing, too, that the requests from the COCOM 
specifically, the PACOM combatant commanders in their war plan 
requirements and their OPLAN [operational plan] requirements, 
will they be able to execute plans based on the current efforts 
within the PACOM AOR? And if the existing capabilities aren't 
there, will they be there? And do we have the resources 
necessary to place the necessary capabilities and capacities 
there in the PACOM AOR?
    Mr. Forbes. We are going to have to ask you--unless you can 
give us a yes or no on that one, if you can submit that for the 
record, because the gentleman's time is expired.
    [The information referred to can be found in the Appendix 
on page 70.]
    Mr. Forbes. Mr. Kilmer is recognized for 5 minutes.
    Mr. Kilmer. Thank you, Mr. Chairman.
    And I apologize in advance if any of these questions were 
previously asked and answered.
    I have just got three questions. One, I am hoping you can 
speak, Mr. Kendall, to some of the implications of the pivot on 
maintenance of naval vessels. Should the committee be aware of 
any future stresses that may arise?
    Secretary Kendall. I am not aware of any. There is general 
stress in the Department on readiness, including maintenance at 
this point, because of sequestration or the potential for 
sequestration going forward. I am not aware of any specific 
issues that are focused on rebalance to the Asia-Pacific. 
Obviously, if we increase the size of the fleet there, we will 
have to increase the amount of maintenance we do in that area 
at the same time, but that goes with the force structure 
deployments.
    Mr. Kilmer. Thank you.
    And any changes necessary related to overseas work and the 
deployment of civilians overseas? I know just in talking with 
the Federal workforce in my neck of the woods, sometimes some 
of the specialized work in Japan, for example, around nuclear 
engineering, it is hard to get folks to uproot their families 
and things of that nature.
    Any changes we ought to be thinking about in that regard to 
deal with that challenge?
    Secretary Kendall. I can't give you any specific data on 
this, but in general, we are trying to find ways to save cost. 
And those do tend to be expensive. So if there are ways we can 
cut costs there and still get the job done, we would be very 
open to that. On the other hand, if there is a legitimate 
requirement and we need to have the people there, then we are 
going to have to do it.
    Mr. Kilmer. And then my final question is more, I guess, of 
local interest. Several minutes ago, I learned of DLA's 
[Defense Logistics Agency] interest in either reducing or 
closing the Defense Fuel Support Point-Manchester. This raises 
several concerns with regard to numerous national security 
missions that are carried out by the Army, Navy, Air Force, and 
Coast Guard who are customers of the facility.
    I am concerned that a move of that nature would negatively 
impact the rebalance and unfortunately DLA I think hasn't 
sufficiently studied the effects of this intended action. To 
ensure that the subject is studied accurately, NAVSUP [Naval 
Supply Systems Command] has commissioned a business case 
analysis [BCA] of their own which is due out next month.
    Could you please assure me that all of the findings from 
NAVSUP's BCA will be specifically addressed in DLA's BCA before 
it is approved?
    Secretary Kendall. Congressman, I am not familiar with that 
specific issue, but I will look into it and I will ensure that 
any appropriate input is taken into account.
    Mr. Kilmer. Thank you. I would be grateful if you could 
follow up with us.
    Thank you. I yield back.
    Mr. Forbes. Thank you.
    The gentleman from Arizona is recognized for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And thank all of you for being here.
    Admiral Pandolfe, my first question to you, sir. There is 
really no doubt about China's increasing ballistic missile 
threat. I am especially concerned about their hypersonic 
technology. And I am wondering how do you think that our 
missile defense capability is postured to respond? And what 
should we be doing more and how should we be trying to involve 
our allies in what they can do more to help us deal with that 
growing threat?
    Admiral Pandolfe. Let me, Congressman, address the issue 
broadly first, and then, quite frankly, come back to you with a 
classified answer for the specific question you ask.
    But ballistic missile defense, as you know, is a key area 
that we feel is vital to assuring access and protecting our 
allies in the immediate and far future. So we have taken a 
number of initiatives in the theater to upgrade sensors and 
shooters and to work with allies, with their capabilities--to 
further their capabilities in this vital area.
    So, it is a recognized area of importance and it is an area 
that we are focusing on.
    Regarding the specific technology you refer to, I would 
like to come back to you in a classified setting and give you a 
more detailed answer to that specific question.
    [The information referred to can be found in the Appendix 
on page 69.]
    Mr. Franks. Well, thank you, and I appreciate that and I 
look forward to that.
    Secretary Kendall. Congressman Franks, if I could?
    Mr. Franks. Please, sir.
    Secretary Kendall. On hypersonics. This is a good example 
of an area of technology which is going to move forward whether 
we invest in it or not. We do have some investments in 
hypersonics. It comes in two forms--a ballistic missile boost 
glide vehicle, essentially, and cruise missiles that are 
powered flight within the atmosphere.
    The high speed of these systems makes them much more 
difficult for air defenses to engage. China is doing work in 
this area. Admiral Locklear made a comment about it recently in 
something he said. When I spoke earlier about, you know, 
feeling reasonably comfortable about where we are today, but 
not necessarily so comfortable 5 or 10 years from now, this is 
one of the technologies that would be on that list of things 
that in 5 or 10 years we might have a much bigger problem with.
    Mr. Franks. Well, obviously, the rationale for the question 
was that I completely embrace what you just said. I believe 
that to be absolutely true. And, you know, I served here on the 
Strategic Forces Committee for 11 years, and so let me just 
suggest to you that I--my purpose here is to try to elevate 
that concern because I think it is a significant one that 
especially given time will manifest.
    So let me, if I could, just continue with you, Mr. Kendall. 
Contrary to what many in the administration, quite frankly, 
have said, Al Qaeda and its affiliates are really not on the 
run. There is a growing reach of Al Qaeda that really has a lot 
of us concerned and they are finding ways, of course, to try to 
terrorize the civilized world.
    How does this Asia-Pacific rebalance affect our readiness 
posture and our resources in the Middle East and Africa that 
are meant to really counter this ongoing effort? If we are 
moving resources away from that effort, help me understand how 
we are keeping our eye on the ball here.
    Secretary Kendall. I am probably the wrong person to take 
that question. I think I will hand it over to Mr. Lumpkin. The 
short answer is that we are very aware of the threat of Al 
Qaeda and extremist organizations and we are trying to balance 
what we do to deal with that threat as well as the other 
priorities of the Department at the same time.
    But I will let Mr. Lumpkin take the question.
    Mr. Lumpkin. Thank you.
    To build on what Under Secretary Kendall was saying is that 
the rebalance to the Pacific is not truly at the expense of 
other ongoing operations; for example, at the expense of 
continuing to combat and to defeat Al Qaeda. So we remain 
committed to that mission, whether it is in the Middle East or 
it is in Africa, but we remain committed to that mission.
    Mr. Franks. A rebalance takes with it necessarily some sort 
of movement of resources in a finite source basis. So you think 
that--you are suggesting to me that our fight against Al Qaeda 
is not going to be diminished by this rebalance. Is that what 
you are saying?
    Mr. Lumpkin. I see us remain committed and we will have the 
assets necessary to continue that fight.
    Mr. Franks. Okay. Slightly different answer, but close 
enough.
    Secretary Kendall. Congressman Franks, the resources we are 
applying against extremist groups tend to be more of the 
intelligence and special operations part of the force 
structure. Whereas, rebalance to the Asia-Pacific tends to be 
more about our air and naval forces. So it is not necessarily 
the same parts of the Defense Department that are engaged.
    Mr. Franks. Well, thank you, gentlemen. I hope you keep 
doing good things. A lot of folks are counting on it. Thank 
you.
    Thank you, Mr. Chairman.
    Mr. Forbes. I thank the gentleman for his questions.
    Ms. Duckworth is recognized for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being here. And a special 
personal welcome to Mr. Lumpkin. Good to see you again. We used 
to work at Veterans Affairs together. I understand your very 
personal commitment to our military men and women and our 
veterans as well.
    My first question is going to be to Secretary Kendall. You 
know, at a time of the drawdown and the effects of the 
sequester, I really believe that the Foreign Military Sales 
[FMS] program has great potential as both a source of income 
and to cultivate better relations with our allies, especially 
in the Asia-Pacific region.
    I visited Thailand last year and met with several military 
leaders. And some of the things I found is that they were not 
aware, for example, about the repatriation of our MRAPs [Mine 
Resistant, Ambush Protected vehicles] from Afghanistan; that 
there is potential that if they had wanted to purchase some of 
those and move them to Thailand on their own to use in the 
southern part of the country where they are experiencing a lot 
of land mine attacks, that would have been useful.
    So can you tell me a little bit about what we are doing to 
increase our FMS program for equipment from the drawdown in 
Afghanistan and to fit the needs of our allies in Asia-Pacific 
region?
    Secretary Kendall. We are making equipment available as 
part of the drawdown. But in the specific case of MRAPs, we 
have a large, excess number of MRAPs. We bought--we are talking 
about 1,000 of them for the wars in Iraq and Afghanistan. Most 
of that excess is actually not in Afghanistan. A lot of it is 
in Kuwait. So it is much more accessible than the specific 
vehicles that are in Afghanistan are, although there is a small 
excess there as well we are having to deal with.
    So we are making these available to people. It is 
disappointing that a country that was a friend and is 
interested in them was not aware of that.
    FMS in general, Foreign Military Sales in general, we are 
encouraging that for a variety of reasons. It is very good 
policy to do that. It brings us closer to the people that we 
are working with in a number of areas, increases the strength 
of relationship.
    It is also obviously good for our industrial base. It makes 
it easier for us to inter-operate with other people's forces if 
they are equipped with similar equipment. That simplifies 
things enormously for us from an operational perspective.
    So we are very encouraging of FMS, particularly in a time 
when budgets are coming down.
    One of the initiatives that I have is to try to put 
exportability features, the things that allow a product to be 
exported, to get a license for export, more easily into the 
design up front. So some of our newer systems that are now in 
development will be coming online in the next few years we hope 
we will be more ready for FMS at the time that they are 
initially going into production for the U.S.
    Our biggest program by far is the F-35 fighter, right now. 
And that is a good example of, you know, a large, you know, 
many, initially eight partners originally, at least two FMS 
sales already, and then more coming. So, we are stressing FMS 
for the variety of reasons that I mentioned to you.
    Ms. Duckworth. I was pleased to see the first couple of 
Black Hawks show up in Thailand, as well, under that program.
    Admiral, I wanted to chat with you a little bit about the 
State Partnership Program. This committee, in the past year, 
has heard from both EUCOM [European Command] commander and 
AFRICOM commander about how valuable the program is to them and 
that it is certainly one of the best tools in their toolbox 
when it comes to maintaining relationships with nations under--
that they deal with under their command.
    As far as the Pacific region is concerned, I know we have 
some partnerships, certainly fewer than in say, Europe or 
Africa. I know that, you know, Hawaii has had a long-time 
partnership with both Indonesia and Thailand, but I notice 
that, you know, Singapore is still not part of that program, 
and a nation like Malaysia, which has certainly done its share 
in terms of peace--providing peace-keeping forces to unite 
under the United Nations flag, we are still not engaging with 
them under the State Partnership Program. Could you talk a 
little bit about what your vision is for that, going into the 
future?
    Admiral Pandolfe. I don't know a lot about the program. 
What I have heard from the COCOMs is very positive. And they, 
as you say, see it as a valuable outreach effort and very 
helpful to them as they, as one more tool in the toolkit for 
helping strengthen friendships and alliances in the area.
    Ma'am, with your permission, I will go back to PACOM and 
get from them their vision as to what the future of this 
program is in their area of responsibility, and provide you 
with a clearer picture as to the way ahead.
    [The information referred to can be found in the Appendix 
on page 70.]
    Ms. Duckworth. Thank you. I think it will be very 
insightful, especially since the, you know, the unique 
capabilities of those National Guard troops. You know, the 
average guardsmen out of Hawaii that are second generation 
Filipinos, you know, can meld very easily into the cultures of 
the Philippines similarly with other nations in the Asia-
Pacific region.
    And I think, as we look to increase trade, increase our 
participation in the Asia-Pacific region, they will be a 
critical resource.
    I yield back, Mr. Chairman.
    Mr. Forbes. Thank the lady for her questions.
    And gentlemen, once again, we thank you for all your 
service you do for our country. Thank you so much for your 
preparation and being willing to share your expertise with this 
committee, and with that, there are no additional questions, we 
are adjourned.
    [Whereupon, at 12:02 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                            January 28, 2014

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 28, 2014

=======================================================================




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                            January 28, 2014

=======================================================================

      
            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY

    Admiral Pandolfe. There are approximately 40,000 more military 
personnel in the Asia-Pacific region today than three years ago.   [See 
page 13.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. MCINTYRE
    Admiral Pandolfe. Australia is one of America's closest and most 
steadfast Allies in the Asia-Pacific. We have operated routinely with 
their superb Naval Forces in the region and across the globe for many 
years. This interaction provides opportunities for port visits, both in 
conjunction with exercises and during routine regional operations. A 
key aspect of our rebalance will be increased opportunities to work 
with the Royal Australian Navy, to include additional port visits.
    You asked about agreements that govern using Australian ports in 
conjunction with these interactions. They are conducted through various 
agreements and arrangements, including: the Security Treaty between 
Australia, New Zealand and the United States of America (ANZUS Treaty); 
the Status of Force Agreement between the United States and Australia; 
the Exchange of Notes constituting an Agreement between the Government 
of Australia and the Government of the United States of America 
concerning Mutual Defense Commitments (Chapeau Agreement); the 
Acquisition and Cross Servicing Agreement (ACSA); and the Agreement 
Concerning Cooperation in Defense Logistic Support. Individual military 
activities are also typically covered by tailored arrangements aimed 
specifically at such activities, including exercises, ship visits and 
aircraft visits.   [See page 31.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MRS. DAVIS
    Mr. Lumpkin. The Navy's Strategic Laydown and Dispersal (SLD) Plan 
is an annual process reviewed by the Chief of Naval Operations (CNO) 
and the Secretary of the Navy (SecNav) each year. The SLD13 plan, 
completed in March 2013 and based on the President's Fiscal Year (FY) 
2014 budget (PB14), provided for up to three CVNs homeported in San 
Diego by FY 2018. There would be minor adjustments from year to year 
due to maintenance requirements that must be completed in Bremerton, 
Washington, or Newport News, Virginia. The plan also included 
stationing a Fifth Amphibious Ready Group of three ships in San Diego 
by FY 2018, including a big deck ship.
    The 2014 SLD plan (SLD14) would be based on the President's FY 2015 
budget (PB15) and should be completed in March 2014. PB15 may include 
impacts on the CVN Fleet that would require changes to the SLD13 plan.   
[See page 30.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. FRANKS
    Admiral Pandolfe. While the hypersonic threat is nascent, DOD is 
evaluating defensive capabilities and working to identify potential 
solutions. The Missile Defense Agency is conducting a technical review 
of the threat implications of hypersonic technology.
    DOD also is committed to improving the effectiveness of its 
existing detection and engagement systems in order to outpace the 
increasing near-term ballistic missile threat. Operationally, the 
United States' missile defense assets, including forward-deployed 
systems in Japan and Korea and the Ground-Based Midcourse Defense 
System (GMD) at home, are capable of providing defensive coverage of 
the United States against a limited long range ballistic missile 
attack. The FY14 President's Budget supports our commitment to increase 
our operational effectiveness. It includes $9.5B in funding to: improve 
sensor discrimination capability, invest in advanced radars, upgrade 
land- and sea-based interceptor missiles, and conduct additional 
operational testing of the GMD. We will continue to advocate those 
priorities in the FY15 budget request.
    America's allies in the Asia-Pacific region also are engaged in 
regional missile defense. Japan and the Republic of Korea have invested 
in missile defense capabilities that are largely interoperable with 
U.S. systems. DOD will continue to encourage these allies and others 
around the world to invest in missile defense technologies and to 
participate in multi-national exercises that enhance interoperability.   
[See page 38.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MR. WITTMAN
    Admiral Pandolfe. [The information is classified and retained in 
the committee files.]   [See page 36.]
                                 ______
                                 
             RESPONSE TO QUESTIONS SUBMITTED BY MS. SPEIER
    Secretary Kendall. The cybersecurity of our networks is one of our 
top missions. Our goal is: ``mission dependability in the face of a 
capable cyber adversary.''
    The recently released, ``DOD Strategy for Defending Networks, 
Systems, and Data'' positions the Department to execute its role in 
defending the nation against cyber-attacks through transformation of 
DOD cybersecurity and cyber defense operations; assuring networks and 
systems are capable of operating in contested cyber environments; and 
reshaping the Department's cyberculture, technology, policy, and 
processes to focus on achieving warfighter missions and needs.
    The strategy identifies four focus areas and their critical 
elements as necessary to achieve the cyber mission now and in the 
future:
    1) Establish a Resilient Cyber Defense Posture: Improving personal 
security practices, architecture and engineering, and delivery of new 
capabilities and solutions to address shortfalls in the current DOD 
Information and Communication Technology (ICT) infrastructure rapidly
    2) Transform Cyber Defense Operations: Shift from reactive cyber 
defense operations to operations that focus a greater portion of their 
efforts on adversary activities and intent
    3) Enhance Cyber Situational Awareness: Significantly improving the 
sensing infrastructure, focusing on intelligence collection and 
analysis, and applying advanced correlation and analytic techniques to 
the resultant ``Big Data''
    4) Assure Survivability against Highly-Sophisticated Cyber Attacks: 
Resiliency and regenerative methods, including strong, survivable 
approaches and architectures, will be employed to provide increased 
confidence that mission systems are neither compromised nor degraded to 
the point of unacceptable mission impact.   [See page 34.]
                                 ______
                                 
            RESPONSE TO QUESTION SUBMITTED BY MS. DUCKWORTH
    Admiral Pandolfe. The vision for the SPP in the Asia-Pacific is to 
reassure our allies through increased presence at nominal cost. Public 
announcement of new SPP partnerships over the next several years will 
demonstrate increased U.S. engagement in the Pacific. SPP will help 
build our partners' capabilities and capacity to respond to natural and 
man-made disasters and help strengthen collaboration on regional 
security interests.
    There are seven (7) SPP partnerships in PACOM dating back to 2000: 
Alaska/Mongolia; Guam, Hawaii/Philippines; Hawaii/Indonesia; Idaho/
Cambodia; Oregon/Bangladesh; Oregon/Vietnam; and Washington/Thailand. 
PACOM is in the final stages of acquiring its eighth state partnership; 
Nevada and Tonga will solidify their partnership in March. PACOM also 
intends to expand its SPP programs in coming years to other countries 
and is working with the Joint Staff and National Guard Bureau to 
finalize plans.
    SPP has shown significant return on investment. For example, 
Mongolia agreed to become an Operation IRAQI FREEDOM coalition member 
contingent upon co-deploying with their SPP partner, Alaska. Since 
2004, 3,500 Mongolians have deployed with 28 Alaskan Guardsmen during 
14 rotations supporting Operation ENDURING FREEDOM. Mongolia currently 
deploys approximately 1,000 peacekeeping personnel to six UN 
peacekeeping missions, in part because of Alaska's close partnership in 
developing Mongolia's deployment capabilities.
    Across the Asia-Pacific Region, this program plays a valuable role 
in achieving the goals and objectives of the PACOM Theater Security 
Cooperation Plan. Disaster preparedness and response are particular 
focus areas for PACOM. Existing National Guard capabilities in domestic 
security and disaster response are directly applicable to building 
partner capacity to help secure these objectives. Additionally, SPP 
States are becoming fully vested in PACOM planning processes, attending 
key planning work groups and conducting ongoing coordination of 
bilateral engagements. Such efforts will ensure SPP contributions are 
fully aligned and synchronized with other USG activities in the region. 
  [See page 40.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. ENYART
    Mr. Lumpkin. Demographic trends in China and Japan are important as 
they could, singly or in combination with other long-term trends such 
as economic growth or environmental quality, have an effect on the 
strategic, economic, and domestic policy priorities of both China and 
Japan, as well as other countries in the region. Although it is hard to 
forecast with precision if, when, and how the effects of these trends 
will manifest themselves, the Department of Defense considers them as 
part of our comprehensive assessments of the future security 
environment.   [See page 23.]
    Secretary Kendall. The Chinese defense budget is not as clearly 
delineated as the U.S. defense budget, and comparing expenditures 
between the two is difficult. However, the Chinese Defense Ministry 
maintains publically that the official defense budget is divided into 
three roughly equal parts: personnel expenses, operating and official 
business expenses (including training), and equipment expenses. In the 
last military expenditure submission to the United Nations, China 
reported that 34.0 percent of its official budget went to personnel 
expenses. The Chinese Defense White Papers indicate that personnel 
costs include pay and living expenses for military personnel (civilians 
working for the People's Liberation Army (PLA) are considered military 
personnel in the budget and force structure numbers).
    China announced that its official 2012 military budget was $106.4 
billion; however, we know that China's published military budget omits 
several major categories of expenditure, such as procurement of foreign 
weapons systems and equipment and research and development costs. 
Estimates of the actual military budget range from 1.5 to 3 times 
China's official defense budget. A senior member of a PLA-affiliated 
think tank stated unofficially that the budget was approximately 1.7 
times the announced budget. Therefore, the percentage of personnel 
costs as part of the actual budget could range from 11.3-22.6 percent 
of the actual military-related expenditures.
    By comparison, in the U.S. Defense budget for FY 2012, excluding 
Overseas Contingency Operations funding, was $530.4 billion, and of 
that amount, DOD spent approximately $253.7 billion on what would be 
considered military and civilian pay and benefit costs--nearly half of 
the budget in comparison to the Chinese personnel costs of 11.3-22.6 
percent.   [See page 23.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. NUGENT
    Secretary Kendall. There is no plan at this time to procure and 
deliver the Counter-electronics High-power microwave Advanced Missile 
Project (CHAMP) missiles in the Joint Capability Technology 
Demonstration (JCTD) configuration to U.S. Pacific Command. The U.S. 
Air Force is using the results from this successful JCTD to inform the 
non-kinetic counter-electronics effort, which is currently in the pre-
material development decision phase. This effort seeks to have a 
procured and operational weapon system to support the targets and 
requirements of the Combatant Commanders in the mid-2020 time frame.   
[See page 27.]
    Secretary Kendall. The Fiscal Year 2015 President's Budget includes 
$1B across the Future Year Defense Plan for Combat Rescue Helicopter, a 
replacement for the HH-60G Pave Hawk. The Air Force is proceeding 
toward a request for acquisition program approval to proceed into the 
Engineering and Manufacturing Development phase, contract award in June 
2014, and the realignment of the necessary $436M in offsets to fully 
fund the program. These offsets will be appropriately reflected in the 
FY16 President's Budget. Meanwhile, the legacy rescue platform has 
$148M budgeted in the FY15 President's Budget for sustainment and 
operational loss replacement initiatives.   [See page 27.]
    Secretary Kendall. The role of the National Guard in the USPACOM 
Area of Responsibility (AOR) is significant--and is diverse in nature. 
In terms of the Guard's contribution to Security Cooperation, their 
engagements cover an array of mission sets including:
    <bullet>  Humanitarian & Civic Assistance;
    <bullet>  Exchanges focusing on Aviation Maintenance, Air Defense, 
Engineering, and Medicine;
    <bullet>  Activities involving Port Security as well as Cyber 
Security; and
    <bullet>  Non-Commission Officer Development--just to name a few.
    The level of National Guard soldier, airmen, and unit participation 
in a great many of our exercises is noteworthy as well. Since just 
2010, more than 11,800 National Guard Soldiers from 33 different 
states/territories, including Florida, have been involved in exercise 
activity in over 15 different nations within the AOR. As for the 
involvement of Air National Guard (ANG) aviation assets, our exercise 
program provides the perfect opportunity for the ANG to train with 
Active Duty counterparts as well as with a host of countries within the 
region; in fiscal year 2014 alone, there are 19 such planned events, 
each with multiple State ANG participation, utilizing a wide variety of 
aircraft types in order to maximize total force training value.
    USPACOM's focus on National Guard utilization in these exercises 
and events will continue to enhance operational readiness, 
interoperability, and valuable overseas deployment training for all 
forces involved, active and reserve alike.   [See page 27.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                            January 28, 2014

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. HANABUSA

    Ms. Hanabusa. Could you define the overall strategic importance of 
Hawaii to the rebalance?
    Mr. Lumpkin. Hawaii occupies a unique strategic position for the 
United States in the Asia-Pacific region. First, Hawaii possesses rich 
historical and cultural ties to countries throughout the region. 
Second, Hawaii has emerged as an influential center for scholarship of, 
and partnership with, the Asia-Pacific region. Hawaii-based, U.S. 
institutions--including the Asia-Pacific Center for Security Studies 
and the National Ocean and Atmospheric Administration's Daniel K. 
Inouye Regional Center--provide the United States opportunities to 
learn with and add value to our relationships with other countries. 
Third, Hawaii serves as the Headquarters of U.S. Pacific Command, the 
Combatant Command most often called upon to implement military elements 
of the rebalance approach. Hawaii will continue to play a strategic 
role in the ongoing rebalance to the Asia-Pacific region, including 
hosting rotational deployments of advanced capabilities.
    Ms. Hanabusa. As you know, perhaps the premier training range 
existing in the Asia-Pacific is Pohakuloa Training Area. What is being 
done to expand its use? To include multilateral exercises with allies?
    As you know, all service components are based on the island of Oahu 
and have high transportation costs to move equipment and personnel to 
address these costs. What initiatives have been undertaken to ensure 
that these costs are manageable?
    High-speed vessels have been used to transport this equipment 
successfully, like the MV Westpac Express in Okinawa, which will give 
way to the USNS Guam (HST-1) this year. There is currently another 
high-speed vessel acquired by the Navy, USNS Puerto Rico (HST-2) that 
could be repurposed to Hawaii. Have any studies been conducted on this?
    Mr. Lumpkin. U.S. Army, Pacific, is conducting a review to develop 
a plan for establishing the Pohakuloa Training Area as a premier 
Regional Collective Training Center. A briefing to the Office of the 
Secretary of Defense on the requirements for this project is scheduled 
for May 2014, which will be followed by engagement with interagency 
partners and discussions with congressional staff members.
    It is my understanding, from the Department of the Navy, that 
managing the cost of transportation remains a priority. Current sealift 
plans do include the replacement of the M/V Westpac Express with the 
USNS Guam (HST-1) in order to support U.S. Marine Corps requirements in 
the region. DOD requires funding in order to convert the USNS Puerto 
Rico (HST-2) from civilian to military use and will continue to review 
the costs associated with the conversion.
    Ms. Hanabusa. Another premier asset in Hawaii is the Pacific 
Missile Range Facility. What initiatives are currently underway to 
initiate total fleet inclusion at the range to expand its usage?
    Mr. Lumpkin. The Pacific Missile Range Facility's (PMRF) role in 
support of the U.S. Navy fleet has expanded over the last few years and 
will continue to grow. PMRF fleet training growth is directly tied to 
enhancing training support for our Forward Deployed Naval Forces (FDNF) 
in the Western Pacific (WESTPAC). Over the past five years, PMRF 
established training support capability personnel (primarily civil 
servants and contractors) to support the U.S. Navy fleet and other 
service training requirements. Our long range goal is to provide our 
forward deployed forces training comparable to that provided to CONUS 
forces.
    In addition to PMRF's recent WESTPAC-driven mission growth, PMRF's 
Middle Pacific mission has systematically increased. PMRF has partnered 
with the U.S. Army's Pohakuloa training requirements. These 
enhancements include the installation of targets, aircraft tracking 
improving the training conducted during Rim of the Pacific (RIMPAC) 
exercises and the U.S. Marine Corps LAVA VIPER exercise events. They 
also provide added training value for transiting U.S. Pacific Fleet 
(PACFLT) Carrier Strike Groups and other forces (schedules permitting) 
en route to their deployed locations. PMRF increased its role in 
supporting advanced pre-deployment exercises for Oahu-based Fleet and 
Joint units, as recently demonstrated during EXERCISE KOA KAI. PMRF 
also modified their runway in support of ``short-field'' training 
support to U.S. Air Force C-17s stationed at Joint Base Pearl Harbor/
Hickam.
    Currently, Commander U.S. Pacific Fleet is working with the 
Commander, U.S. Marine Forces Pacific to identify desired PMRF training 
support capability for the projected increased Marine Corps presence in 
Hawaii and the Marianas. PMRF capabilities will be leveraged to 
continue to support Marine Corps training including Unmanned Aerial 
System (UAS), aviation maritime gunnery, low-level flight, V-22 
operations, and amphibious warfare training.
    Ms. Hanabusa. As you know, 2,700 Marines will be relocated to 
Hawaii as part of the DPRI and recently a land use study was completed. 
What outcomes did you learn from this study about the infrastructure in 
Hawaii? Could Hawaii handle additional personnel if necessary?
    Mr. Lumpkin. It is my understanding from the Department of the 
Navy, that the U.S. Marine Corps Base Hawaii Optimization study, Oahu 
Land Use study, and Kalaeloa evaluation reviewed possible bed-down 
locations in Hawaii for the additional Marines and determined that 
existing DOD property on Oahu could be utilized for the relocation. 
However, final basing decisions will not be made until after the 
National Environmental Policy Act (NEPA) Environmental Impact Statement 
(EIS) and Record of Decision are completed. The environmental 
assessment process will begin in 2019.
    Ms. Hanabusa. Could you define the overall strategic importance of 
Hawaii to the rebalance?
    Admiral Pandolfe. Hawaii is a critical center of operations for the 
Asia-Pacific Region and will become more important as we continue to 
rebalance to the Pacific. Its location in the middle of the Pacific 
Ocean makes it the operational, logistics, and command and control hub 
for our Asia-Pacific forces.
    Operationally, the state is a vital site as we redistribute the 
Joint Force between Japan, Korea, Australia, Guam, and Hawaii. Hawaii 
hosts the U.S. Pacific Command (USPACOM) headquarters, as well as 
headquarters of the U.S. Pacific Fleet, U.S. Pacific Air Forces, U.S. 
Army Pacific, and U.S. Marine Forces who deploy throughout the Asia-
Pacific. From Hawaii, USPACOM oversees approximately 330,000 U.S. 
military and civilian personnel (roughly one-fifth of total U.S. 
military strength), approximately 180 ships (including five aircraft 
carrier strike groups) and nearly 2,000 aircraft.
    Hawaii also possesses invaluable infrastructure that supports those 
forces. These facilities include many important repair and maintenance 
facilities, missile tracking sites, warehouses, ports and airfields, 
and range facilities. These facilities support both current and 
contingency operations throughout the region.
    Hawaii also serves as the command and control center for major 
regional engagements and exercises throughout the region. These include 
TALISMAN SABER with Australia; COBRA GOLD with Thailand; BALIKATAN with 
the Republic of the Philippines; KEEN SWORD/KEEN EDGE with Japan; and 
RIM OF THE PACIFIC, which includes major allies such as Canada, 
Australia, Japan, South Korea, and the United Kingdom.
    Ms. Hanabusa. As you know, perhaps the premier training range 
existing in the Asia-Pacific is Pohakuloa Training Area. What is being 
done to expand its use? To include multilateral exercises with allies?
    As you know, all service components are based on the island of Oahu 
and have high transportation costs to move equipment and personnel to 
address these costs. What initiatives have been undertaken to ensure 
that these costs are manageable?
    High-speed vessels have been used to transport this equipment 
successfully, like the MV Westpac Express in Okinawa, which will give 
way to the USNS Guam (HST-1) this year. There is currently another 
high-speed vessel acquired by the Navy, USNS Puerto Rico (HST-2) that 
could be repurposed to Hawaii. Have any studies been conducted on this?
    Admiral Pandolfe. The Army is interested in establishing Pohakuloa 
Training Area (PTA) as a Regional Collective Training Center. This 
center would provide a joint/multinational training site in the mid-
Pacific and host biennial multilateral training exercises. The Army is 
developing a plan to provide intermodal transportation, suitable life 
support and infrastructure, and sustainable training facilities to meet 
Army and Joint training requirements. After the Army completes its 
plans, the DOD, Department of State, and other interagency stakeholders 
will have a chance to review them.
    Ms. Hanabusa. Another premier asset in Hawaii is the Pacific 
Missile Range Facility. What initiatives are currently underway to 
initiate total fleet inclusion at the range to expand its usage?
    Admiral Pandolfe. The value and utility of the Pacific Missile 
Range Facility (PMRF) has expanded steadily and will continue to grow. 
Over the past five years, PMRF has established training support 
capability for USN and USMC forces in Guam and Okinawa. PMRF also 
partnered with the U.S. Army's Pohakuloa Training Area (PTA) to improve 
range infrastructure in support of all Services' aviation strike 
training requirements. These improvements include the installation of 
targets and aircraft tracking systems and the deployment of portable 
electronic warfare support teams to the PTA. PMRF also increased its 
support of advanced pre-deployment exercises for Oahu-based Fleet and 
Joint units, as recently demonstrated during exercise KOA KAI. 
Additionally, PMRF has modified its runway in support of ``short-
field'' training for USAF C-17's stationed at Joint Base Pearl Harbor-
Hickam.
    PACOM is also seeking expanded PMRF training support capability for 
the projected increase of Marine Corps presence in Hawaii and the 
Marianas. New or enhanced range capabilities could include unmanned 
aerial systems, aviation maritime gunner, low-level flight, V-22 
operations, and amphibious warfare training areas. Our goal is to 
provide forward deployed forces training comparable to that provided to 
CONUS forces.
    Ms. Hanabusa. As you know, 2,700 Marines will be relocated to 
Hawaii as part of the DPRI and recently a land use study was completed. 
What outcomes did you learn from this study about the infrastructure in 
Hawaii? Could Hawaii handle additional personnel if necessary?
    Admiral Pandolfe. Our plans call for up to 2,700 Marines and nearly 
1,900 family members to relocate from Okinawa to Hawaii starting in 
approximately 2027. The land use study completed in December 2013 
revealed sufficient land exists on DOD property in Oahu to accommodate 
additional personnel. The study did not propose any final basing 
decisions. Those decisions will occur after a National Environmental 
Policy Act Environmental Impact Statement and Record of Decision have 
been completed. The environmental review process is planned to begin in 
2019.
    Ms. Hanabusa. As you know, perhaps the premier training range 
existing in the Asia-Pacific is Pohakuloa Training Area. What is being 
done to expand its use? To include multilateral exercises with allies?
    As you know, all service components are based on the island of Oahu 
and have high transportation costs to move equipment and personnel to 
address these costs. What initiatives have been undertaken to ensure 
that these costs are manageable?
    High-speed vessels have been used to transport this equipment 
successfully, like the MV Westpac Express in Okinawa, which will give 
way to the USNS Guam (HST-1) this year. There is currently another 
high-speed vessel acquired by the Navy, USNS Puerto Rico (HST-2) that 
could be repurposed to Hawaii. Have any studies been conducted on this?
    Secretary Kendall. One of the Army's seven priorities in the 
Pacific is ``to gain a mutually agreed Joint master plan for Pohakuloa 
Training Area/Center (PTA/PTC).'' To this end, the Army is focused on 
establishing PTA as a premier Regional Collective Training Center in 
the mid Pacific. The Army is laying out an inclusive plan that provides 
efficient intermodal transportation, which could include a high-speed 
vessel, suitable life support and infrastructure, and sustainable 
training facilities and lands to satisfy Army and joint community 
current and evolving training requirements. PTA, Joint Pacific Alaskan 
Range Complex, and Yakima Training Center (in support of Joint Base 
Lewis McChord in central Washington) are to be U.S. Army Pacific's 
three primary collective training Centers of Excellence. Once the full 
set of requirements is identified, a resourcing strategy will be 
developed that will lead to a fiscally executable master plan. In the 
past, PTA has supported a series of Service bilateral exercises and 
training exchanges, mainly with Army, Marine Corps, and Special 
Operations forces. Most recently, elements of the Australian and 
Singaporean forces and the Japanese Ground Self Defense Force have 
trained at PTA. PTA is the U.S. Army's Training Center of choice for 
mid Pacific training.
    Ms. Hanabusa. Another premier asset in Hawaii is the Pacific 
Missile Range Facility. What initiatives are currently underway to 
initiate total fleet inclusion at the range to expand its usage?
    Secretary Kendall. The Pacific Missile Range Facility (PMRF) is a 
critical training/readiness and test and evaluation (T&E) asset. PRMF's 
support to the U.S. Pacific Fleet mission has systematically increased. 
PMRF has partnered with the U.S. Army's Pohakuloa Training Area (PTA) 
to improve range infrastructure in support of all of the Military 
Departments' aviation strike training requirements. These enhancements 
include the installation of targets and aircraft tracking systems and 
the deployment of portable electronic warfare support teams to PTA--
improving the training conducted during U.S. Pacific Command (USPACOM) 
Rim of the Pacific exercise and the Marine Corps LAVA VIPER exercise 
events. They also provide added training value for transiting Pacific 
Fleet Carrier Strike Groups and other forces (schedules permitting) 
enroute to their deployed locations.
    PMRF fleet training growth is directly tied to enhancing training 
support for our Forward Deployed Naval Forces in the Western Pacific. 
Over the past 5 years, PMRF has established training support capability 
for Navy and Marine Corps forces in Guam and Okinawa. To provide this 
Training, PMRF ``deploys'' U.S. Government personnel (primarily civil 
servants) and utilizes contractors to support Navy Fleet and other 
Service training requirements. The goal is to provide to our forward 
deployed forces training comparable to that provided to forces based 
within the continental United States. PMRF increased its role in 
supporting advanced, pre-deployment exercises for Oahu-based Fleet and 
Joint units, as recently demonstrated during KOA KAI, the semiannual 
exercise in the waters around Hawaii. PMRF has modified its runway in 
support of ``short-field'' training for the Air Force C-17s stationed 
at Joint Base Pearl Harbor/Hickam.
    Currently, the Commander, U.S. Pacific Fleet is working directly 
with the Commander, U.S. Marine Forces Pacific to identify desired PMRF 
training support capabilities for the projected, increased Marine Corps 
presence in Hawaii and the Marianas, leveraging PMRF capabilities. 
Unmanned Aerial Systems, aviation maritime gunnery, low-level flight, 
V-22 operations, and amphibious warfare are training areas in which 
enhanced capability may be warranted.
    PRMF hosts both joint and coalition weapons systems T&E events. 
PMRF provides valuable T&E support to Aegis Ballistic Missile Defense, 
Standard Missile, Trident II, Minuteman II, and Missile Defense Agency 
programs. The Navy continues to program Major Range and Test Facility 
Base operations and maintenance funding to support PMRF's Coherent 
Signal Processing (COSIP) radars, telemetry, optics, and the Mobile At 
Sea Sensor (MATSS) maintenance. The Navy also has programmed additional 
funding to improve and modernize PMRF's COSIP radars and the telemetry 
system, and the MATSS recently was refurbished to extend its service 
life.
    Ms. Hanabusa. As you know, 2,700 Marines will be relocated to 
Hawaii as part of the DPRI and recently a land use study was completed. 
What outcomes did you learn from this study about the infrastructure in 
Hawaii? Could Hawaii handle additional personnel if necessary?
    Secretary Kendall. The study was completed in December 2013 by the 
U.S. Marine Corps. They are currently evaluating its results. The study 
assessed the potential for optimizing space on Marine Corps Base Hawaii 
and potential available space on other Department of Navy and 
Department of Defense installations on the island of Oahu. The results 
of the analysis will inform a future National Environmental Policy Act 
analysis that will examine locations on Hawaii (Oahu).
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. CARSON
    Mr. Carson. Given that sequestration has injected a level of 
uncertainty into our defense budget, what specific strategic objectives 
do you consider to be the highest priority in the rebalance in the 
Asia-Pacific? In the event that sequestration continues and budgets 
become tighter, which objectives would receive less focus?
    Mr. Lumpkin. The primary lines of effort for the Department of 
Defense's effort to rebalance to the Asia-Pacific region are: 
transforming and modernizing alliances and partnerships; enhancing our 
defense posture in the region; updating operational concepts and plans, 
investing in the capabilities we need to secure our interests 
throughout the region; and strengthening multilateral cooperation and 
engagement. Should available funding be reduced as a result of 
sequestration, the pace and scale of implementation would be adjusted, 
possibly including changes to our rotational deployments or the pace at 
which new capabilities are available, or by altering the mix of forces 
available globally. The ongoing efforts to rebalance to the Asia-
Pacific region would, however, remain consistent. Any decisions about 
specific changes would be made based on conditions at the time.
    Mr. Carson. Given that sequestration has injected a level of 
uncertainty into our defense budget, what specific strategic objectives 
do you consider to be the highest priority in the rebalance in the 
Asia-Pacific? In the event that sequestration continues and budgets 
become tighter, which objectives would receive less focus?
    Admiral Pandolfe. PACOM has strategic objectives derived from 
national-level guidance and the Secretary of Defense's Guidance for 
Employment of the Force. Among our highest priorities are to strengthen 
allies, mature our military-to-military relationship with China, 
develop a U.S.-India strategic partnership, remain prepared to respond 
to a Korean Peninsula contingency, and counter transnational threats.
    In the event of sequestration, PACOM's strategic objectives will 
not change. However, budget cuts will impact the range of options 
available to meet those objectives. We are concerned the cancellation 
or deferment of exercises and engagements will reduce opportunities to 
build partner capacity and interoperability. Sequestration also will 
impact PACOM's ability to respond to operations, crises, and 
contingencies due to force structure reductions that adversely affect 
capabilities.
    Mr. Carson. Given that sequestration has injected a level of 
uncertainty into our defense budget, what specific strategic objectives 
do you consider to be the highest priority in the rebalance in the 
Asia-Pacific? In the event that sequestration continues and budgets 
become tighter, which objectives would receive less focus?
    Secretary Kendall. In striving to achieve our strategic objectives, 
the Department will continue to rebalance and sustain its global 
posture, while appropriately managing risk, as necessary, given the 
challenges presented by a constrained budget environment and a dynamic 
global threat environment.
    We will continue our contributions to the U.S. rebalance in the 
Asia-Pacific region, seeking to preserve peace and stability in a 
region that is increasingly central to U.S. political, economic, and 
security interests, particularly in the face of North Korea's long-
range missiles and Weapons of Mass Destruction programs--especially its 
pursuit of nuclear weapons. As part of our broader efforts for 
stability in the Asia-Pacific region, the United States will maintain a 
robust footprint in Northeast Asia while enhancing our presence in 
Oceania and Southeast Asia. We will also invest in key capabilities 
that preserve or enhance our technological superiority over any 
potential adversary.
    As we draw down forces in Afghanistan, we are prepared to 
transition to a limited mission focused on counterterrorism and 
training, advising, and assisting Afghan security forces. These 
objectives remain a high priority despite sequestration and a 
constrained budget.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KILMER
    Mr. Kilmer. Several months ago, I learned of the DLA's interest in 
either reducing or closing the Defense Fuel Support Point Manchester. 
This action raises several concerns with regard to the numerous 
national security missions that are carried out by the Army, Navy, Air 
Force and Coast Guard who are customers of the facility. I am concerned 
that such a move would negatively impact the rebalance. Unfortunately, 
DLA is insufficiently studying the effects of their intended action. As 
such, many important factors may be missed. To ensure that the subject 
is studied accurately, NAVSUP has commissioned a Business Case Analysis 
(BCA) of their own which is due out next month. Could you please assure 
me that all of the findings from NAVSUP's BCA will be specifically 
addressed in DLA's BCA before its approved?
    Secretary Kendall. As the Department of Defense's Executive Agent 
for bulk petroleum, the Defense Logistics Agency's (DLA) mission is to 
deliver effective fuel support in the most efficient manner possible. 
DLA's ongoing review of Manchester and its fuel delivery network 
supports this effort. DLA understands the importance of working with 
all stakeholders to address their concerns to ensure exceptional 
warfighter support at the lowest cost to the taxpayer. Please be 
assured, all pertinent information, to include the NAVSUP BCA, will be 
addressed as part of DLA's Manchester review prior to any decisions.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN
    Mr. Runyan. Secretary Kendall, as you may know, the Department of 
Defense has long been supported by the GSA's Eastern and Western 
Distribution Centers. One of the largest and most important missions of 
these centers is to supply much needed logistical items to our 
warfighters overseas. What are the projected outlays for costs to the 
DOD when GSA shuts down these Distribution Centers and shifts to full 
vendor support overseas?
    Secretary Kendall. Reducing cost is the whole premise of our Big 6 
efforts with GSA, specifically the integration of the Eastern 
Distribution Center and Western Distribution Center into our 
distribution system; as well as the transfer of approximately 5,300 
items from the General Services Administration (GSA) to the Defense 
Logistics Agency (DLA). While both the WDC and EDC have supported the 
Warfighters in the past, a majority of the items from these centers 
come through DLA's Central Control Points (CCPs) for further transfer 
to the requisitioning customer worldwide. GSA is transitioning stock 
from these depots to Direct Vendor Delivery (DVD) contracts, and the 
remaining 480 items are transferring to DLA ownership, where DLA will 
manage these items either via DVD or physically locating them in our 
depots. The DLA solution will depend upon which is most cost efficient 
and effective to support the customer.
    I am assuming the comment about full vendor support overseas 
implies that GSA will use DVD solutions to support overseas orders, 
primarily to DOD customers. In that context, we are working closely 
with GSA to ensure current and future GSA DVD contracts include the 
necessary provisions to ensure all packaging and labelling conforms to 
DOD and commercial standards and that shipments can go directly from 
their DVD vendors to overseas customers. If they cannot, then they will 
transit through our CCPs, but with proper labeling to ensure the cargo 
does not become misdirected, thereby delaying deliveries to the 
customer.
    We do not anticipate any projected outlays in terms of cost as DLA 
has the current capacity within our depots for those items coming to 
DLA from GSA. Similarly, we already perform the CCP function for GSA on 
many of their items, so there are no additional costs associated with 
the CCP effort. As I previously mentioned, we anticipate a reduction in 
cost once the contracts have the correct provisions for shipping and 
labeling, as there will be a significant reduction in the level of 
effort required to process inbound shipments that in the past may have 
been misdirected.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. NUGENT
    Mr. Nugent. The Counter-electronic High-power-microwave Advanced 
Missile Project (CHAMP) is developing a non-lethal weapon that uses a 
microwave emitter to knock out the electronics of an enemy without 
causing damage to people or structures. The Air Force successfully 
tested CHAMP on a cruise missile delivery vehicle. Retrofitting this 
weapon on cruise missiles is cheap for us to produce and expensive for 
our adversaries to defend. It will only take 18 months before we can 
start delivering CHAMP cruise missiles to PACOM.
    As the Chinese continue to expand their territorial claims and 
assert force over their neighbors, tensions will rise with the American 
forces operating in the same contested space. In the menu of options to 
calm an escalating situation and deter conflict, I would imagine a non-
lethal weapon that renders our enemy without electricity would be a 
valuable tool.
    Would you talk about some of the uses for the CHAMP non-lethal 
weapon system in the Asia-Pacific?
    Secretary Kendall. CHAMP was developed by the Air Force Research 
Laboratory and demonstrated under a Joint Capabilities Technology 
Demonstration program to determine the ability of an aerial platform 
with a high-power microwave energy source to disrupt, degrade, or 
disable critical electronic and communication equipment.
    A non-kinetic weapon similar to CHAMP could reduce collateral 
damage and reconstruction costs, and would be non-lethal (no 
casualties). Due to its capability of attacking multiple targets with 
one weapon, the cost per target could be less than the cost of kinetic 
missile weapons, and thus it could be a force multiplier for 
commanders.

                                  [all]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
